1a
990 F.3d 918
United States Court of Appeals, Fifth Circuit.
Doctor Melvin G. PERRY, Jr., Plaintiff—Appellant,
v.
VHS SAN ANTONIO PARTNERS, L.L.C.,
doing business as North Central Baptist Hospital,
Defendant—Appellee.
No. 20-50356
|
FILED March 10, 2021
Attorneys and Law Firms
Colin William Walsh, Wiley Walsh, P.C., Austin, TX, for
Plaintiff—Appellant.
Tiffany Cox Stacy, Kelly Preston, Ogletree, Deakins,
Nash, Smoak & Stewart, P.C., San Antonio, TX, for Defendant—Appellee.
Before Jolly, Stewart, and Oldham, Circuit Judges.
Opinion
E. Grady Jolly, Circuit Judge:
The man at the center of this employmentdiscrimination appeal is Dr. Melvin G. Perry, Jr., an
African-American pediatric intensivist. Dr. Perry treated
children in the pediatric intensive care unit of a hospital owned by VHS San Antonio Partners, L.L.C. under
his professional services agreement with Pediatric Inpatient Critical Care Services (PICCS), which itself

2a
operated under a separate coverage agreement with
VHS. PICCS eventually terminated its professional
services agreement with Dr. Perry at VHS’s request. In
response, Dr. Perry sued claiming race discrimination
under Title VII of the Civil Rights Act of 1964 and 42
U.S.C. § 1981. The district court granted summary
judgment dismissing his claims against VHS, dismissing his Title VII claim for lack of an employment relationship with VHS, and his § 1981 claim for lack of a
contractual relationship with VHS. Dr. Perry appeals
to us. We hold that Dr. Perry’s Title VII claim fails for
lack of an employment relationship with VHS under
either integrated-enterprise or joint-employment theories. And we further hold that Dr. Perry’s § 1981 claim
fails because Dr. Perry cannot identify an impaired contractual right enforceable against VHS. Consequently,
we affirm the district court’s partial final judgment.
(Dr. Perry’s § 1981 claim against PICCS is still pending
before the district court.)1
I
VHS is an entity that owns and operates North
Central Baptist Hospital. North Central Baptist is located in San Antonio, Texas and is the hub for pediatric
care for the Baptist Health System in the area. The pediatric intensive care unit is at the center of this dispute. In December 2014, North Central Baptist needed
physicians to treat patients in that unit. To fill that
1

The district court entered a Federal Rule of Civil Procedure
54(b) partial final judgment authorizing this interlocutory appeal.

3a
need, VHS contracted with PICCS, a professional association owned by three physicians: Dr. Thomas Gowan,
Dr. Hugo Carvajal, and Dr. Nelson Pedro Chavez. The
parties call this agreement the “coverage agreement,”
and we will do the same.
The purpose of the coverage agreement is to ensure that VHS has enough pediatric intensivists to
treat the children in North Central Baptist’s pediatric
intensive care unit. The agreement achieves that goal
by making PICCS the “exclusive provider” of pediatric
critical care services for North Central Baptist’s pediatric intensive care unit.
Five features of the coverage agreement bear mention. First, the coverage agreement says that PICCS
and its physicians “are acting as independent contractors, and shall not be considered employees or agents
of ” VHS. Second, the coverage agreement requires
PICCS to pay its physicians fair market value. Third,
the coverage agreement sets baseline qualifications for
PICCS physicians; they must (a) be duly licensed and
qualified to practice medicine in Texas; (b) be a participating physician in Medicare and in Texas’s Medicaid
program; (c) be approved for membership and/or clinical privileges on the medical staff of North Central
Baptist; and (d) be Board Certified (or Board Eligible)
in pediatrics. Fourth, the coverage agreement grants
VHS’s CEO the right to “request removal” of any
PICCS physician “if continued service by such [p]hysician could jeopardize patient care or safety.” Upon
such a request, PICCS agrees to “immediately remove”
the physician “in accordance with [North Central

4a
Baptist’s] Medical Staff Bylaws.” Fifth and finally, the
coverage agreement obliges PICCS to appoint a director of the pediatric intensive care unit, “subject to the
prior approval of ” VHS’s CEO.
To meet its obligations under the coverage agreement, PICCS required more physicians. So it placed an
advertisement online, soliciting applications from pediatric critical care specialists. Dr. Perry responded.
One of PICCS’s owners, Dr. Carvajal, found Dr. Perry’s
application “attractive” and invited Dr. Perry to travel
to San Antonio for an interview in January 2015.
The interview went well. Just two months later,
Dr. Perry entered into a professional services agreement with PICCS. Three features of that agreement
are relevant. First, Dr. Perry agreed to “render professional medical services in the specialty of pediatric
critical care medicine” at North Central Baptist. Second, Dr. Perry agreed that “the relationship between
[PICCS] and him is that of an independent contractor.”
And third, Dr. Perry agreed to execute a separate “physician agreement” with VHS.
Dr. Perry signed the physician agreement a few
weeks later. Under it, he agreed that he understood
that he was bound by the terms of the coverage agreement between VHS and PICCS. He also agreed that
North Central Baptist’s “Medical Staff Bylaws shall
control my termination of Medical Staff Membership
and/or clinical membership.” The physician agreement
was signed only by Dr. Perry, purportedly “[i]n consideration of [his] approval by [VHS] to provide services”

5a
at North Central Baptist. Because the physician agreement is the basis for Dr. Perry’s § 1981 claim against
VHS, and the language of that agreement informs the
analysis to follow, we set out the agreement in full:
I, Melvin G. Perry, MD, am a member, associate, partner or employee of or an independent
contractor under contract with Pediatrics
Inpatient Critical Care Services, P.A.
(“Group”). I understand that I am bound by all
terms and conditions of the Agreement for Department coverage dated December 12, 2014
and effective March 1, 2015 (the “Agreement”)
between VHS San Antonio Partners, LLC
dba North Central Baptist Hospital (“Hospital”) and Group. In consideration of my approval by Hospital to provide services at
North Central Baptist Hospital (“Hospital”),
pursuant to the Agreement, I knowingly and
voluntarily agree to the following.
I understand, acknowledge and expressly
agree that it is in the best interest of Hospital’s ability to provide quality patient care
in a cost-effective and efficient manner for
Hospital to contract with an entity to be the
exclusive provider of the Services for the Department. I further understand, acknowledge
and agree that upon expiration or earlier termination of the Agreement, with or without
cause, Hospital shall have the right to grant
an exclusive contract for the provision of Services to any person or entity.
I understand, acknowledge and agree that
the Medical Staff Bylaws shall control any

6a
termination of Medical Staff Membership
and/or clinical privileges. I understand, acknowledge and agree that unless and until
such loss of membership occurs, I am bound
by and subject to all provisions of the Bylaws,
Rules and Regulations of Hospital and/or its
Medical Staff.
Without limiting the foregoing in any way, I
understand, acknowledge and agree that if
the Agreement expires and/or terminates for
any reason, and I continue to hold Medical
Staff membership and/or exercise clinical
privileges thereafter, this shall not, in any
way, waive or restrain the Hospital from
granting an exclusive contract for the provision of Services to any person or entity.
I agree that if any one or more of the provisions contained herein shall be held to be invalid, illegal or unenforceable for any reason,
whether in whole or in part, such invalidity,
illegality or unenforceability shall not affect
any other provision hereof, and this Physician
Agreement shall be construed as if such provision had never been contained herein.
BY MY SIGNATURE BELOW, I ACKNOWLEDGE THAT I HAVE CAREFULLY READ
AND UNDERSTOOD THE ABOVE PHYSICIAN AGREEMENT, AND I HAVE CAREFULLY READ AND UNDERSTOOD THE
AGREEMENT REFERRED TO ABOVE AND
THAT I KNOWINGLY AND VOLUNTARILY
AGREE TO THEIR TERMS.

7a
Dr. Perry’s stint at North Central Baptist was a short
one.2 He worked there under his professional services
agreement with PICCS for just 22 months, from April
2015 to February 2017. During Dr. Perry’s tenure, VHS
did not pay his salary, did not bill for his services, did
not pay for his continuing medical education or his
membership in professional organizations, did not pay
his malpractice insurance, did not create his schedule,
and did not keep his personnel records.
In January 2017, North Central Baptist President
Bill Waechter and North Central Baptist Chief Medical Officer Dr. Dana Kellis decided to terminate Dr.
Perry’s professional services agreement. Although the
termination, officially, was without cause, Waechter
testified that the contract was terminated because Dr.
Perry had created a hostile work environment that was
“putting . . . patient care in jeopardy.”
This occasion was the first—and is the only—time
VHS exercised its contractual right to request removal
of a PICCS physician. PICCS complied with the request and sent Dr. Perry a letter informing him that
“the Board of Directors of PICCS has directed to terminate” the agreement “without cause pursuant to Section 15.1” and giving Dr. Perry 90 days notice of the
termination. Dr. Perry chose not to work through the
full notice period and treated patients at North Central Baptist only through February 2017.

2

The reader is reminded that VHS owns and operates North
Central Baptist Hospital.

8a
II
In response to the termination of his contract, Dr.
Perry sued both PICCS and VHS under Title VII and
42 U.S.C. § 1981. He alleged that PICCS and VHS
discriminated against him on the basis of his race
and sex and subjected him to a hostile work environment. Regarding his employment, he alleged that
(a) both PICCS and VHS were his Title VII “employer,”
(b) PICCS and VHS were joint employers, and (c) PICCS
and VHS constituted a single, integrated enterprise.
At the urging of PICCS and VHS, the district court
bifurcated discovery on the employment-relationship
issue from discovery on other issues. The district court
ordered limited discovery “on the threshold issues of
whether [Dr. Perry] was an employee of [PICCS] and
whether [VHS] was a joint employer of [Dr. Perry].”
The district court stayed discovery on the merits of Dr.
Perry’s claims, pending its ruling on dispositive motions regarding those threshold issues.
Dipositive motions followed. VHS sought summary judgment dismissing all of Dr. Perry’s claims,
contending the Title VII claim failed because Dr. Perry
did not have an employment relationship with VHS,
and the § 1981 claim failed because Dr. Perry did not
have a contract with VHS. PICCS also moved for summary judgment, but it sought dismissal of the Title VII
claim only. PICCS first contended that Dr. Perry’s Title
VII claim failed on the ground that PICCS did not
meet the Title VII definition of “employer” because
PICCS did not employ at least 15 people. See 42 U.S.C.

9a
§ 2000e(b). PICCS next contended that the claim
failed for the independent reason that application
of the “hybrid economic realities/common-law control
test” showed that Dr. Perry was an independent contractor, not an employee of PICCS. And PICCS last contended that VHS and it were not joint employers of Dr.
Perry; Dr. Perry was an independent contractor of both
entities.
The district court granted both motions for summary judgment in a lengthy opinion, analyzing the Title VII claims first and the § 1981 claim second.
The Title VII analysis was intricate. Starting
with the claims against PICCS, the district court concluded that PICCS, standing alone, did not qualify as
a Title VII “employer” because it did not employ at
least 15 people. So PICCS could not be liable under Title VII unless Dr. Perry could aggregate PICCS’s and
VHS’s employees by showing that PICCS and VHS
constituted a single, integrated enterprise. Consistent
with Schweitzer v. Advanced Telemarketing Corp., 104
F.3d 761, 764 (5th Cir. 1997), the district court began
the aggregation analysis by applying a “hybrid economic realities/common law control” test to determine
whether Dr. Perry was an employee or independent
contractor of PICCS. But application of that test
yielded no answer: The district court found fact disputes bearing on Dr. Perry’s status as a PICCS employee. Having found fact disputes concerning Dr.
Perry’s employment relationship with PICCS, the district court turned to VHS, asking whether that entity
and PICCS constituted a single, integrated enterprise,

10a
such that both could be liable under Title VII. PICCS
and VHS did not constitute an integrated enterprise,
the district court decided, because Dr. Perry failed “to
show the requisite degree of interrelation in daily employment matters.” That conclusion left just one basis
for imposing Title VII liability—joint employment.
Again applying the “hybrid economic realities/common
law control” test, the district court concluded that
VHS did not qualify as a joint employer of Dr. Perry
because VHS lacked meaningful control over Dr. Perry
and his work. Given the district court’s conclusions
that (1) VHS was not a joint employer, (2) VHS and
PICCS were not a single, integrated enterprise, and
(3) PICCS, standing alone, did not employ enough people to qualify as a Title VII “employer,” the district
court entered summary judgment dismissing all of Dr.
Perry’s Title VII claims.
The § 1981 analysis proved simpler. Dr. Perry’s
§ 1981 claim against VHS failed because, according to
the district court, Dr. Perry did not have a contractual
relationship with VHS. Dr. Perry’s “physician agreement” was not a contract covered by § 1981, the district
court reasoned, because the physician agreement “d[id]
no more than restate the fact that the [Medical Staff ]
Bylaws control membership and privileges and their
termination” and thus created “no enforceable contract
rights against VHS.” In the light of its conclusion that
Dr. Perry did not have a contract with VHS, the district court entered summary judgment dismissing Dr.
Perry’s § 1981 claim against VHS.

11a
After the district court’s summary-judgment ruling, one claim remained—a § 1981 claim against
PICCS. Not wanting to delay this appeal, Dr. Perry
moved for entry of a partial final judgment under Federal Rule of Civil Procedure 54(b), thus allowing entry
of an appealable judgment on one or more claims even
when trial-court litigation remains for other claims.
The district court granted the motion, entering a partial final judgment dismissing all of Dr. Perry’s claims
against VHS, from which Dr. Perry takes this timely
appeal.
In short, the only matters before us today are Dr.
Perry’s Title VII and § 1981 claims against VHS. His
§ 1981 claim against PICCS is still pending in the district court.
III
We review the grant of summary judgment de
novo. West v. City of Houston, 960 F.3d 736, 740 (5th
Cir. 2020) (per curiam). Summary judgment is appropriate if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a).
A dispute is genuine if “the evidence is such that a reasonable jury could return a verdict for the nonmoving
party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). A fact is
material if it “might affect the outcome of the suit.” Id.
We view the evidence in the light most favorable to the
nonmovant and draw all reasonable inferences in that

12a
party’s favor. Adams v. Alcolac, Inc., 974 F.3d 540, 543
(5th Cir. 2020) (per curiam).
Dr. Perry makes three claims. First, he contends
that VHS is liable under an “interference” theory of Title VII liability promulgated in Sibley Memorial Hospital v. Wilson, 488 F.2d 1338 (D.C. Cir. 1973). Second,
he contends that the district court erred in granting
summary judgment dismissing his Title VII claims for
lack of an employment relationship with VHS. Third,
he contends that the district court erred in granting
summary judgment dismissing his § 1981 claim for
lack of a contractual relationship with VHS. We consider his Sibley argument before turning to Title VII
and then to § 1981.
IV
Dr. Perry contends—for the first time on appeal—
that VHS is liable under Sibley’s “interference” theory.3
We generally do not consider arguments raised for the
first time on appeal. See Stokes v. Emerson Elec. Co.,
217 F.3d 353, 358 n.19 (5th Cir. 2000). But there are
exceptions. For example, we may consider an issue “if
the argument on the issue before the district court was
sufficient to permit the district court to rule on it.” In
re Liljeberg Enters., Inc., 304 F.3d 410, 427 n.29 (5th
3

Under Sibley’s “interference” theory, a plaintiff can bring a
Title VII action against a defendant who is not his “actual” or
“direct” employer if that defendant “control[s] access to” the plaintiff ’s employment and “den[ies] such access by reference to invidious criteria.” 488 F.2d at 1342.

13a
Cir. 2002). That is not the case here. Because Dr. Perry
did not mention Sibley or even suggest the “interference” theory in the district court, the argument on the
issue was not sufficient to permit the district court to
rule on it. So Dr. Perry failed to preserve his Sibley argument, and we decline to consider it. We turn to consider Dr. Perry’s Title VII claim.
V
The basic premise of a Title VII case is that the
plaintiff had an employment relationship with the defendant. See Muhammad v. Dall. Cnty. Cmty. Supervision & Corr. Dep’t, 479 F.3d 377, 380 (5th Cir. 2007). Dr.
Perry contends that he had an employment relationship with VHS on the basis of two alternative theories.
First, he contends that VHS and PICCS were engaged
in an integrated enterprise. Second, he contends that
VHS was his joint employer, along with PICCS. We address each argument in turn.
A
Dr. Perry first contends that his evidence is sufficient to show that VHS and PICCS constituted a
single, integrated enterprise. In Title VII cases, “ ‘superficially distinct entities may be exposed to liability
upon a finding they represent a single, integrated enterprise: a single employer.’ ” Schweitzer, 104 F.3d at
763 (quoting Trevino v. Celanese Corp., 701 F.2d 397,
404 (5th Cir. 1983)). We apply a four-factor test to determine whether two entities are a single employer for

14a
Title VII purposes. Johnson v. Crown Enters., Inc., 398
F.3d 339, 343 (5th Cir. 2005). The factors are “(1) interrelation of operations, (2) centralized control of labor
relations, (3) common management, and (4) common
ownership or financial control.” Vance v. Union Planters Corp., 279 F.3d 295, 297 (5th Cir. 2002) (citing Trevino, 701 F.2d at 403).
The first factor, interrelation of operations, “ultimately focuses on whether” one entity “excessively influenced or interfered with the business operations” of
the other. Lusk v. Foxmeyer Health Corp., 129 F.3d 773,
778 (5th Cir. 1997). Evidence that one entity is involved in the “daily employment decisions” of the other
is “central.” Schweitzer, 104 F.3d at 765. The fact that
one entity “ultimately benefitted from the activities” of
the other “is irrelevant to whether their operations
were interrelated.” Lusk, 129 F.3d at 778. “Attention to
detail, not general oversight, is the hallmark of interrelated operations.” Id. (citing Johnson v. Flowers Indus., Inc., 814 F.2d 978, 982 (4th Cir. 1987)). Evidence
suggestive of interrelated operations includes (1) one
entity’s involvement in the other’s daily decisions relating to production, distribution, marketing, and advertising; (2) shared employees, services, records, and
equipment; (3) commingled bank accounts, accounts
receivable, inventories, and credit lines; (4) one entity’s
maintenance of the other’s books; (5) one entity’s issuance of the other’s paychecks; and (6) one entity’s preparation and filing of the other’s tax returns. Id. No such
evidence is present here. More broadly, there is no evidence that VHS “excessively influenced or interfered

15a
with the business operations” of PICCS, which is the
“ultimate focus[ ] “ of this factor. Id. Still, Dr. Perry complains that the district court overlooked evidence that
PICCS physicians are necessary to VHS’s business and
that VHS “coached” Dr. Perry by telling him that he
needed to improve his conduct. But those facts do not
reflect the degree of interrelatedness Lusk requires:
They do not show VHS’s “attention to detail” or its “excessive[ ] influence[ ] “ in PICCS’s business. Id. Consequently, this factor disfavors a finding that VHS and
PICCS constitute a single, integrated enterprise.
The second factor, centralized control of labor relations, “has been called the most important one.”
Johnson, 398 F.3d at 343 (citing Schweitzer, 104 F.3d
at 764). We have refined the inquiry into one question:
What entity made the final decisions on employment
matters regarding the person claiming discrimination?
Id. (quoting Trevino, 701 F.2d at 404). To satisfy this
factor, Dr. Perry points primarily to two items of evidence. First, he points to the coverage agreement between PICCS and VHS. That agreement, as we have
explained, grants VHS’s CEO the right to “request removal” of PICCS physicians and requires PICCS, in
turn, to “immediately remove” the physician “in accordance with . . . Medical Staff Bylaws.” Second, he
points to an email from North Central Baptist Chief
Medical Officer Dr. Dana Kellis to North Central Baptist President Bill Waechter.4 In that email, Dr. Kellis
states that he met with PICCS’s owner-directors, and
4

The reader is once again reminded that VHS owns and operates North Central Baptist Hospital.

16a
“we reached the decision to tell Dr. Perry that he is
being terminated without cause. . . .” The coverage
agreement’s grant of the power to request Dr. Perry’s
removal, and Dr. Kellis’s reference to “we,” suggest that
both VHS and PICCS made the final decision to terminate Dr. Perry’s professional services agreement. See
Trevino, 701 F.2d at 404. Although VHS’s power to request removal of a PICCS physician was exercised on
only one occasion, such a power generally favors a finding that VHS and PICCS constitute an integrated enterprise.
The third factor, common management, disfavors
a finding that VHS and PICCS are a single, integrated
enterprise. PICCS’s management consisted of Dr.
Thomas Gowan, Dr. Hugo Carvajal, and Dr. Nelson
Pedro Chavez. The VHS-owned North Central Baptist
Hospital was managed by Bill Waechter. There is no
overlap of managerial responsibilities.
The fourth and final factor, common ownership or
financial control, also disfavors a single, integrated enterprise. Dr. Perry has not identified any commonality
of ownership of VHS and PICCS, nor has he presented
any evidence of shared financial control.
In sum, the first, third, and fourth factors indicate
that VHS and PICCS do not constitute an integrated
enterprise. But the second and most important factor—
centralized control of labor relations—as a general rule
favors a finding that VHS and PICCS constitute an
integrated enterprise. Nevertheless, this conclusion
raises the question whether Dr. Perry’s satisfaction of

17a
the second factor, such as it may be, standing alone,
creates a genuine dispute of material fact, precluding
summary judgment on the integrated-enterprise theory. The district court thought not, and we agree.
Although we have not confronted this precise
question until today, the Equal Employment Opportunity Commission has offered some guidance. It has
suggested that no single factor is dispositive of the
integrated-enterprise analysis. See EEOC Compliance
Manual, Section 2: Threshold Issues at III(B)(1)(a)(iii)(a),
2009 WL 2966755. Our cases have pointed us in a similar direction. In Torres v. Liberto Manufacturing Co.,
we said that the plaintiff ’s reliance on the second factor, standing alone, was “not persuasive.” 67 F. App’x
252, 2003 WL 21195924, at *3 (5th Cir. 2003) (per curiam). And in Lusk, we emphasized the need for evidence
of “[s]ome nexus” to “daily employment decisions.” 129
F.3d at 778 (citing Schweitzer, 104 F.3d at 765). The
only evidence offered on that point in this case is that
VHS exercised its contractual right to request that
PICCS terminate Dr. Perry’s professional services
agreement. Apparently no such or similar event had
occurred before. This singular involvement of VHS in
PICCS’s personnel retention demonstrates that reasonable jurors could not find that VHS was “so involved
in the daily employment decisions of [PICCS] as to justify treating the two . . . as a single employer.” Id. at
777 n.3 (citations omitted). Consequently, the district
court did not err in concluding that Dr. Perry failed
to create a genuine dispute of material fact on his

18a
integrated-enterprise theory. We now turn to consider
Dr. Perry’s next theory—joint employment.
B
Dr. Perry contends that even if he fails on his
integrated-enterprise claim, he has surely offered
enough evidence to survive summary judgment on the
ground that VHS was a joint employer. We lay the foundation to his argument, citing its definition: “The term
‘joint employer’ refers to two or more employers that
are unrelated or that are not sufficiently related to
qualify as an integrated enterprise, but that each exercise sufficient control of an individual to qualify as [his]
employer.” EEOC COMPLIANCE MANUAL, Section 2:
Threshold Issues at III(B)(1)(a)(iii)(b), 2009 WL
2966755.
To determine whether an entity exercises enough
control over an individual to qualify as his employer,
we apply a “hybrid economic realities/common law control test.” Deal v. State Farm Cnty. Mut. Ins. Co. of Tex.,
5 F.3d 117, 118–19 (5th Cir. 1993) (quoting Fields v.
Hallsville Indep. Sch. Dist., 906 F.2d 1017, 1019 (5th
Cir. 1990) (per curiam), cert. denied, 498 U.S. 1026, 111
S.Ct. 676, 112 L.Ed.2d 668 (1991)). The right to control
the employee’s conduct is the most important component of determining a joint employer. Id. at 119 (citing
Fields, 906 F.2d at 1019). When examining the control
component, we focus on the right to hire and fire, the
right to supervise, and the right to set the employee’s
work schedule. Id. (citing Fields, 906 F.2d at 1020;

19a
Mares v. Marsh, 777 F.2d 1066, 1068 (5th Cir. 1985)).
The economic-realities component of the “hybrid economic realities/common law control test” focuses on
who paid the employee’s salary, withheld taxes, provided benefits, and set the terms and conditions of employment. Id. (citing Mares, 777 F.2d at 1068).
It is helpful that we previously have applied this
“hybrid economic realities/common law control test” in
the hospital-physician context. See Diggs v. Harris
Hosp.-Methodist, Inc., 847 F.2d 270 (5th Cir. 1988). We
held in Diggs that an obstetrician-gynecologist with
staff privileges at a hospital failed to establish that she
was an employee of the hospital.5 Id. at 272. The hospital supplied the tools, staff, and equipment Diggs
needed to treat patients, and the hospital “impose[d]
standards” upon Diggs, as it did upon all physicians
with staff privileges. Id. at 273. The hospital even required Diggs to have a “sponsor” present during surgical procedures. Id. Yet all of this involvement was
insufficient. Id. We emphasized that the hospital did
not “direct the manner or means” by which Diggs
rendered medical care; it did not pay Diggs for her
5

Cases from other circuits have reached the same general
conclusion: A physician with hospital privileges is not a hospital
employee for purposes of federal antidiscrimination law. See, e.g.,
Henry v. Adventist Health Castle Med. Ctr., 970 F.3d 1126, 1133
(9th Cir. 2020) (bariatric surgeon), petition for certiorari filed, No.
20-869 (Dec. 30, 2020); Wojewski v. Rapid City Reg’l Hosp., Inc.,
450 F.3d 338, 344 (8th Cir. 2006) (cardiothoracic surgeon); Shah
v. Deaconess Hosp., 355 F.3d 496, 500 (6th Cir. 2004) (general surgeon); Vakharia v. Swedish Covenant Hosp., 190 F.3d 799, 806
(7th Cir. 1999) (anesthesiologist); Cilecek v. Inova Health Sys.
Servs., 115 F.3d 256, 263 (4th Cir. 1997) (emergency physician).

20a
services; and it did not pay her licensing fees, professional dues, insurance, taxes, or retirement benefits.
Id.
Applying this test here, we first find that the evidence of control is weak. To be sure, we already have
discussed the only fact that reflects control—VHS’s
limited contractual right to “fire” Dr. Perry by requesting that PICCS terminate his professional services
agreement. The other facts cut against control. First,
VHS did not have the right to hire Dr. Perry. The coverage agreement delegated to PICCS the task of employing or contracting with physicians other than the
Director of PICCS. Second, VHS did not have the right
to set Dr. Perry’s work schedule. PICCS created and
maintained the work schedule for Dr. Perry. Dr. Perry
himself even retained the right to adjust the schedule
set by the PICCS Director. For example, Dr. Perry refused to work on dates that he had planned to take a
trip to Australia and New Zealand. During some
months, Dr. Perry, at his choosing, worked only one
week at North Central Baptist, and he worked the rest
of the month at Kids Time Pediatric locations in Georgia. Dr. Perry’s power to determine his own work
schedule and to offer his professional services at other
locations suggests that he is an independent contractor, not an employee of VHS.6 See Henry, 970 F.3d at
6

Yet Dr. Perry insists that VHS set his schedule, complaining that a VHS employee, Shannon Herrod, scheduled his
pediatric sedations “inappropriately.” Herrod’s “inappropriate”
scheduling of pediatric sedations does not show that VHS set Dr.
Perry’s schedule because, as the district court noted, PICCS

21a
1131 (physician’s freedom to run his own private practice was “inconsistent with employee status”); Levitin
v. Nw. Cmty. Hosp., 923 F.3d 499, 501–02 (7th Cir. 2019)
(physician who could set her own hours and work at
other hospitals was independent contractor—not employee—of hospital); Cilecek, 115 F.3d at 261 (same).
Thirdly, we ask whether VHS had the right to supervise Dr. Perry or to interfere with his exercise of
professional medical judgment in any meaningful respect. Although Dr. Perry points to evidence that VHS
provided him with the equipment and facilities he
needed to treat his patients, that fact is insufficient to
establish control. See Diggs, 847 F.2d at 273. Dr. Perry
also points to “coaching” he received from VHS in response to complaints that he was “rude and condescending.” The fact that an unidentified VHS employee
“coached” Dr. Perry in a generalized way and “impress[ed] upon” him the “need to improve” his conduct
clearly does not demonstrate VHS’s power to control
Dr. Perry’s exercise of professional medical judgment.
See, e.g., Henry, 970 F.3d at 1132 (physician’s obligation
to abide by hospital regulations did not evidence “a
right to control the manner and means of [his] practice”); Cilecek, 115 F.3d at 261–62 (physician’s obligation to abide by hospital rules and regulations, “which
regulated his work at the hospitals in substantial detail,” did not transform him into hospital employee).
Dr. Perry also contends that VHS could require him
to treat certain patients over his objections, but the
Director Chavez scheduled Dr. Perry on a 12-week cycle, subject
to Dr. Perry’s stated availability.

22a
argument finds only limited support in the record. The
argument rests on a single occasion in which “administration” transferred a pregnant, septic teenager to
North Central Baptist Hospital over Dr. Perry’s objection. Dr. Perry testified that this was an example of
VHS “forcing a patient onto [him].” It is unclear from
the record, however, what entity “forced” the patient on
him, or whether the patient was indeed “forced” on
him, given that the patient was transferred to another
hospital at the request of a physician who agreed with
Dr. Perry’s assessment. In any event, this one incident
does not establish that VHS had the power to control
Dr. Perry’s exercise of professional medical judgment.
In sum, the evidence offered by Dr. Perry does not support the control component.
We move on now to address the economic-realities
component of the “hybrid economic realities/common
law control test.” As earlier noted, the economic-realities component focuses on “whether the alleged employer paid the employee’s salary, withheld taxes,
provided benefits, and set the terms and conditions of
employment.” Deal, 5 F.3d at 119 (citing Mares, 777
F.2d at 1068). VHS did none of these things. It did not
pay Dr. Perry’s salary, bill for his services, pay for his
continuing medical education courses or his membership dues to various professional organizations, pay for
his malpractice insurance, create his schedule, or keep
his personnel records.
Thus, neither component of the “hybrid economic
realities/common law control” test supports an employment relationship between VHS and Dr. Perry. Like the

23a
hospital in Diggs, VHS ultimately lacked the requisite
control; it did not “direct the manner or means by
which [Dr. Perry] render[ed] medical care.” 847 F.2d
at 273. Consequently, we find no error by the district
court in rejecting the joint-employer argument.
This conclusion coheres with Burton v. Freescale
Semiconductor, Inc., 798 F.3d 222 (5th Cir. 2015), on
which Dr. Perry relies. There we considered whether a
temporary employee assigned by a staffing company to
a manufacturer had an employment relationship with
the manufacturer under the “hybrid economic realities/
common law control test.” Id. at 227–28. We held that
she did. Id. In so holding, we emphasized that the manufacturer supervised the temporary employee: The
manufacturer “completed performance reviews” of the
temporary employee’s work and “delivered” “[o]n-thejob corrections and admonishment.” Id. Here, such supervision, which we emphasized in Burton, is absent.
To repeat, VHS did not have the right to supervise Dr.
Perry or to interfere with his exercise of professional
medical judgment in any meaningful respect. So we
cannot agree that Burton requires reversal.
In sum, Dr. Perry did not have an employment
relationship with VHS under either an integratedenterprise or a joint-employment theory. Unable to
show an employment relationship with VHS, Dr. Perry
cannot prevail on his Title VII claim against VHS.
We therefore affirm the summary judgment dismissing the Title VII claims against VHS, and turn to consider Dr. Perry’s claim under § 1981.

24a
VI
Section 1981 does not supply “a general cause of
action for race discrimination.” Arguello v. Conoco, Inc.,
330 F.3d 355, 358 (5th Cir. 2003). It bars race discrimination in contracting. See 42 U.S.C. § 1981. It does so
by guaranteeing to all persons within the jurisdiction
of the United States the “same right . . . to make and
enforce contracts . . . as is enjoyed by white citizens. . . .”
Id. § 1981(a). It defines the phrase “make and enforce
contracts” to include “the making, performance, modification, and termination of contracts, and the enjoyment of all benefits, privileges, terms, and conditions of
the contractual relationship.” Id. § 1981(b).
Section 1981 requires a plaintiff to show that (1) he
is a member of a racial minority; (2) the defendant had
an intent to discriminate on the basis of race; and
(3) the discrimination concerned one or more of the activities enumerated in the statute, such as the making
and enforcing of a contract. Bellows v. Amoco Oil Co.,
118 F.3d 268, 274 (5th Cir. 1997) (citing Green v. State
Bar of Tex., 27 F.3d 1083, 1086 (5th Cir. 1994)). “Any
claim brought under § 1981 . . . must initially identify
an impaired contractual relationship under which the
plaintiff has rights.” Domino’s Pizza, Inc. v. McDonald,
546 U.S. 470, 476, 126 S.Ct. 1246, 163 L.Ed.2d 1069
(2006) (cleaned up). A § 1981 claim fails as a matter of
law if the plaintiff lacks “rights under the existing (or
proposed) contract that he wishes ‘to make and enforce.’ ” Id. at 479–80, 126 S.Ct. 1246 (quoting 42 U.S.C.
§ 1981).

25a
Dr. Perry sued VHS under § 1981 claiming discrimination based on his race. He has failed, however,
to identify in his complaint an “impaired contractual
relationship [with VHS] under which [he] ha[d] rights,”
id. at 476, 126 S.Ct. 1246, and therefore his complaint
failed to state a plausible § 1981 claim. But VHS did
not move to dismiss for failure to state a claim, choosing to move for summary judgment instead. Dr. Perry
opposed that motion on the ground that his physician
agreement created a contractual relationship with
VHS. The district court disagreed, dismissing the
§ 1981 claim and holding that the physician agreement
did not create a contractual relationship between Dr.
Perry and VHS.
Although we will not specifically disagree with the
holding of the district court, we will affirm the dismissal on a slightly different ground. See Bluebonnet Hotel
Ventures, L.L.C. v. Wells Fargo Bank, N.A., 754 F.3d
272, 276 (5th Cir. 2014) (We “may affirm summary
judgment on any ground supported by the record, even
if it is different from that relied on by the district
court.”) (internal citation and quotation marks omitted). The physician agreement was signed only by Dr.
Perry, who executed the agreement “[i]n consideration
of [his] approval by [VHS] to provide services” at North
Central Baptist Hospital. This language, however, refers to Dr. Perry meeting privileging credentials, not to
any formal approval by VHS. Under the physician
agreement, Dr. Perry agreed that he understood that
he was bound by the terms of the coverage agreement
between VHS and PICCS. He also agreed that North

26a
Central Baptist’s “Medical Staff Bylaws shall control
my termination of Medical Staff Membership and/or
clinical membership.” VHS, on the other hand, is not
shown to have agreed to anything. It follows, then, that
Dr. Perry failed to identify any right under the physician agreement that he seeks to “make and enforce”
against VHS. So his § 1981 claim fails.
Our conclusion that Dr. Perry failed to identify an
enforceable contractual right against VHS does not
end the discussion. Dr. Perry further maintains that he
can recover against VHS under § 1981 in the absence
of a contractual relationship with VHS. He urges us to
hold that VHS has § 1981 liability because it “interfered” with his PICCS professional services agreement
by requesting that PICCS terminate that agreement.
He contends that we recognized in Faraca v. Clements,
506 F.2d 956 (5th Cir. 1975), the right of a § 1981 plaintiff to sue a “third party”—that is, a non-party to the
contract at issue—for interference with the plaintiff ’s
right to make and enforce a contract. So, for purposes
of this case, Dr. Perry argues that Faraca allows him
to bring a § 1981 claim against VHS—a “third party”
to his professional services agreement with PICCS—
for interfering with that agreement.
But Dr. Perry overreads Faraca. That case arose
from the refusal of a state facility, the Georgia Retardation Center, to hire Dr. Andrew Faraca for an administrative position because Dr. Faraca, a white male,
was married to an African-American woman. Id. at
958. Although Dr. Faraca was the best-qualified candidate for the position, the Director of the Center told a

27a
hiring officer not to hire Dr. Faraca because of “concern
about the effects of the racially mixed couple on visitors and possible adverse reactions from state legislators.” Id. Dr. Faraca was not hired. He responded
by suing the Director for race discrimination under
§ 1981, claiming that the Director had interfered with
his right to contract with a prospective employer, the
State of Georgia. Id. After a bench trial, the district
court held the Director personally liable to Dr. Faraca
under § 1981. Id. at 957. We affirmed. Id. We did so despite the fact that the Director was, strictly speaking,
a third party: Dr. Faraca did not have a contract with
the Director, and the Director did not have the power
to contract or refuse to contract with Dr. Faraca. Id.
Because the Center was a State of Georgia facility, the
State was the employer, and, according to the opinion,
only it would have been in a position to refuse to enter
into a contract with Dr. Faraca. Id. at 959.
Since we decided Faraca, however, we have clarified the reason for the Director’s liability. See Bellows,
118 F.3d at 274. The Director “was only nominally a
third party,” we have explained. Id. Because the Director was acting on behalf of the State of Georgia when
he instructed a subordinate not to hire Dr. Faraca, the
Director and the State “were essentially one and the
same.” Id. Accordingly, we do not read Faraca to recognize, as Dr. Perry contends, a true third-party-interference theory of § 1981 liability. See id. Rather, we read
Faraca to allow § 1981 liability where the “third party”
and the contracting party are “essentially one and the
same.” Id. No evidence suggests that VHS and PICCS

28a
are “essentially one and the same.” It follows that Dr.
Perry cannot recover against VHS under § 1981 on the
theory initially articulated in Faraca and clarified in
Bellows.
VII
We now sum up. In this opinion, we have held
that Dr. Perry did not have an employment relationship with VHS. We have rejected his argument that
an employment relationship arose under either jointemployment or integrated-enterprise theories. Consequently, the district court did not err in granting
summary judgment dismissing Dr. Perry’s Title VII
claims. We have further held that Dr. Perry has failed
to show any contractual right enforceable against VHS
under his “physician agreement” and have thus concluded that the district court did not err in granting
summary judgment dismissing Dr. Perry’s § 1981
claim. For these reasons, the partial final judgment of
the district court, dismissing all of Dr. Perry’s claims
against VHS, is, in all respects,
AFFIRMED.

29a
2020 WL 1248263
Only the Westlaw citation is currently available.
United States District Court,
W.D. Texas, San Antonio Division.
Dr. Melvin G. PERRY, Jr., Plaintiff,
v.
PEDIATRIC INPATIENT CRITICAL
CARE SERVICES, P.A., et al., Defendants.
Civil Action No. SA-18-CV-404-XR
|
Signed March 16, 2020
Attorneys and Law Firms
Colin Walsh, Wiley Walsh, P.C., Austin, TX, for Plaintiff.
Angella Hebert Myers, Janice S. Parker, Sharon S. Gilmore, The Myers Law Group, LLP, Dallas, TX, for Defendant Pediatric Inpatient Critical Care Services, P.A.
Tiffany Cox Stacy, Ogletree, Deakins, Nash, Smoak &
Stewart, P.C., Mark A. McNitzky, Clark Hill Strasburger, San Antonio, TX, for Defendant VHS San Antonio Partners, LLC.
ORDER
XAVIER RODRIGUEZ, UNITED STATES DISTRICT
JUDGE
On this date, the Court considered Defendants’
Motions for Summary Judgment on the threshold

30a
issues of whether Plaintiff had an employment relationship with Defendants for purposes of Title VII.
Procedural Background
Plaintiff Melvin Perry filed this lawsuit on May 3,
2018 against Defendants Pediatric Inpatient Critical
Care Services, P.A. (“PICCS”) and VHS San Antonio
Partners, LLC d/b/a North Central Baptist Hospital,
alleging claims under Title VII and 42 U.S.C. § 1981 for
race discrimination. Docket no. 1. Plaintiff filed a First
Amended Complaint on December 26, 2018, alleging
claims for hostile work environment, discrimination
(termination) based on race and/or sex, and retaliation
and a claim under § 1981 for race discrimination.
Docket no. 28. Plaintiff alleges that PICCS was his employer and that PICCS and VHS were “joint employers” and/or constituted a “single integrated enterprise.”
Id. ¶ 7. Defendants answered and denied employer status. Docket nos. 31, 33.
On June 11, 2019, the Court granted Defendants’
motion to bifurcate, allowing limited discovery and the
filing of dispositive motions on the threshold issues of
whether Plaintiff was an employee or an independent
contractor and whether PICCS and VHS were his employers for purposes of Title VII. Defendants have now
filed their dispositive motions, and VHS also moves for
summary judgment on Plaintiff ’s § 1981 claim, arguing that there is no contract. Plaintiff has responded in
opposition on all issues.

31a
Factual Background
Defendant PICCS is a professional association
formed under Texas law in December 2014 for the
practice of medicine and services ancillary thereto.
Docket no. 59-1. PICCS has three directors/owners: Dr.
Thomas Gowan, Dr. Hugo Carvajal, and Dr. Nelson
Pedro Chavez. PICCS, standing alone, does not employ
more than 15 people.
Defendant VHS runs North Central Baptist Hospital (“the Hospital”), and the Hospital maintains a
pediatric intensive care unit (“PICU”) on its premises. Pediatric intensivists take care of patients in the
PICU, and the PICU requires 24/7 physician coverage.
The Hospital employs more than 15 people, including
nurses and therapists, but does not directly enter into
employment relationships with physicians. Waechter
depo. at 15, 17.
On or about December 12, 2014, PICCS entered
into an Agreement for Pediatric Intensive Care Department Coverage with VHS (“the PICCS-VHS Coverage Agreement”) to furnish physicians for full-time
coverage to the Hospital’s PICU. Docket no. 59-2.
PICCS had no other clients and did not provide services to any other Hospital or Hospital System. Chavez
depo. at 19. As part of the PICCS-VHS Coverage Agreement, PICCS agreed to provide physicians for the Hospital’s PICU “to assure physician coverage of such
Services.” Id. The Hospital engaged PICCS “on an exclusive basis for [PICCS] to provide to Hospital the

32a
Services and supervise the operation of the [PICU] in
accordance with” the Agreement.
Each Physician was required to be duly licensed
and qualified to practice medicine in Texas (and be
Board Certified in Pediatrics or Board eligible), be a
participating physician in Medicare and in Texas’s
Medicaid program, and be approved for membership
and/or clinical privileges on the medical staff of the
Hospital in accordance with the Hospital’s Medical
Staff Bylaws and Rules and Regulations. The Bylaws
are a form of self-governance, created by the Medical
Staff of Baptist Health System. Watkins Decl. They establish standards for Medical Staff membership and
Clinical Privileges and provide means to enforce those
standards. Id. Physicians apply for Medical Staff Membership and Clinical Privileges to admit and treat patients at the Hospital. Id. When membership and/or
privileges are granted, the physician agrees to abide by
the Bylaws and rules and Regulations, as well as the
Professional Code of Conduct. Id.
PICCS physicians would (1) be the exclusive providers of services in the PICU; (2) provide call coverage
for the PICU; (3) administer pediatric procedural sedation to Hospital inpatients and emergency room
patients; (4) respond to pediatric emergencies for
both inpatients and emergency room patients, when
requested by either the attending physician or emergency room physician; (5) attend any and all meetings
within the Hospital that Physicians are asked to attend by the Hospital’s CEO except to the extent patient
care responsibilities necessitates Physician’s attention;

33a
and (6) perform such other duties as may from time to
time be requested by the Hospital, Hospital’s Governing Board, Hospital’s medical staff, and/or the CEO,
and agreed to by PICCS. The Hospital was required
to provide written reports of all examinations, treatments, and procedures performed pursuant to the
Agreement for billing and healthcare operations. PICCS
warranted that its Physicians would comply with all
applicable bylaws, rules, regulations, procedures, and
policies of the Hospital and its medical staff.
PICCS would also appoint, subject to the approval
of the Hospital CEO, a Physician to serve as Director
of the PICU while the Agreement was in effect, and the
Director would (1) participate in the educational programs conducted by the Hospital and its medical staff
to assure its overall compliance with accreditation and
licensing requirements, and perform such other reasonable teaching functions as the Hospital may request; (2) direct non-physician PICU personnel in
the performance of professional services for patients;
(3) advise the Hospital with respect to the selection,
retention, and termination of all personnel who may be
required for the proper operation of the PICU, but the
Hospital would retain ultimate decision-making authority; (4) establish schedules for all Services provided by Physicians in accordance with the terms of
the Agreement; (5) supervise the development and implementation of Hospital quality assurance and quality improvement programs and procedures in the
PICU; (6) assist the Hospital in the preparation and
conduct of surveys by the Joint Commission and/or any

34a
other national, state, or local agency; (7) participate in
the Hospital’s Medicare Performance Improvement initiatives and other performance management and innovation initiatives; and (8) perform any other duties
that Hospital, Hospital’s Governing Board, medical
staff and/or the CEO may request, as agreed to by the
Director. PICCS appointed one of its director/owners,
Dr. Chavez, to be the PICU Director.
The Coverage Agreement required PICCS to
“cause each Physician who will provide Services under
this Agreement to execute the Physician Agreement
attached” to the Agreement as Exhibit A. PICCS would
also ensure that each Physician maintained professional liability insurance coverage at specified limits.
The Coverage Agreement also contains an Exhibit B
outlining the Services that PICCS would provide. It
states that “a minimum of 3 full time Physicians will
be necessary” and PICCS would “provide Physicians
for call coverage in the [PICU] on a 24 hour basis every
day during the Term of this Agreement with in-house
call coverage provided only when there is a pediatric
inpatient in the [PICU] who meets the Critical Care
criteria.” “On or before the first day of each calendar
month, [PICCS] shall provide to the Hospital CEO a
schedule of Physicians assigned to provide call coverage in the Department during the calendar month and
such schedule shall be posted within the [PICU].”
The Coverage Agreement provides that PICCS
and the Physicians it would provide to VHS would be
acting as independent contractors of VHS, and would
not be considered employees or agents of the Hospital.

35a
PICCS warranted to VHS that it would pay compensation to the Physicians based on fair market value and
that it would “maintain a written agreement with each
physician receiving compensation from [PICCS] that is
not an employee of Group (e.g., each non-employed independent contractor), which written agreement is or
will be signed by the parties, and does or will specify
the services covered by the arrangement.” PICCS
would bill on the Physicians’ behalf, and would have
the exclusive right to collections therefrom. VHS
agreed to pay PICCS a monthly guaranteed amount of
$137,500 (offset by collections). PICCS had “sole responsibility to compensate Physicians, and Director”
and reserved the right, in its sole discretion, to determine the compensation payable to each Physician
working in the PICU.
The Coverage Agreement further provided that, at
all times, “the CEO [of the Hospital] shall have the
right to request removal of any such Physician if continued service by such Physician could jeopardize patient care or safety” and PICCS “agrees to immediately
remove any such Physician in accordance with Hospital’s Medical Staff Bylaws.” Further, the Medical Staff
membership and/or clinical privileges of each Physician were “based upon the Medical Staff Bylaws” and
“the Medical Staff membership and/or clinical privileges of Director and each Physician at Hospital shall
terminate in accordance with the Medical Staff Bylaws”; and “the Medical Staff Bylaws shall control over
this Agreement with respect to peer review.”

36a
The Coverage Agreement commenced on March 1,
2015 and was for a three-year term, with automatic extensions on a month-to-month basis for up to six
months if not renewed and not advised of a party’s intent not to renew. Docket no. 59-2.
PICCS sought physicians to fulfill its obligation to
provide coverage to the PICU, and placed an advertisement, to which Perry responded. Docket no. 57-9.
PICCS invited Plaintiff to meet with several individuals and groups in January 2015, before contracting
with him. Docket no. 59-1. Perry met with several individuals who worked at the Hospital, including the
PICU nursing staff and the Hospital President (Bill
Waechter), toured the Hospital, and met with Dr. Carvajal and Dr. Gowan. Perry depo. at 23. Perry did not
have any further conversations with anyone with the
Hospital before contracting with PICCS. Perry depo. at
24.
PICCS eventually contracted services with four
physicians: Dr. Perry, Dr. Aviles, Dr. Fernandez, and Dr.
Chavez (who was also a shareholder/director of PICCS
and was selected as Director of the PICU). Docket no.
59-1 p.36.; Perry depo. at 78. Per the Coverage Agreement, Hospital approval was required for Chavez to be
selected as Director.
On March 17, 2015, Dr. Perry entered into a Professional Services Agreement (“PSA”) with PICCS.
Docket no. 59-3. Plaintiff hired an attorney to negotiate the agreement. The PSA provides that PICCS
“desires to contract with Physician to provide such

37a
professional medical services on behalf of Association
in accordance with the terms and conditions of the this
[sic] Agreement.” The Agreement was to commence on
the first day Perry provided Services under the Agreement after and subject to successful completion of all
pre-employment processes, including background review, evidence of professional liability insurance coverage, and credentialing by the Hospital (anticipated to
be completed on or around March 30, 2015). In a section entitled “Engagement and Scope of Practice; Relationship Between Parties,” the PSA provides,
(a) Physician agrees to provide call coverage
services and render professional medical services in the specialty of pediatric critical care
medicine exclusively for, except with advance
written consent of Association pursuant to
Section 7 of this Agreement, and on behalf of
Association within the scope of Physician’s license at North Central Baptist Hospital in
San Antonio, Texas (“NCBH”) consistent with
the terms and conditions set forth in this
Agreement on a schedule as determined by
Association (collectively referred to as “Services” under this Agreement). Such Services
shall be rendered in a competent, professional
and ethical manner, in accordance with prevailing standards of medical practice in the
relevant community. Physician shall at all
times act and deliver Services in a manner
consistent with (i) applicable standards of
the Joint Commission and any other relevant accrediting organizations; (ii) all applicable bylaws, rules regulations, procedures,

38a
and policies of NCBH and its medical staff;
(iii) the Principles of Medical Ethics of the
American Medical Association; and (iv) all applicable laws, regulations, rules, orders and
directives of any and all applicable governmental and regulatory bodies having competent jurisdiction.
(b) Physician shall comply with the terms of
this Agreement and cooperate with North
Central Baptist Hospital in carrying out the
provision of Services under this Agreement.
As required by NCBH and this Agreement,
Physician shall i) execute the Physician
Agreement attached hereto as Exhibit A and
ii) provide to Association a list of Physician’s
existing directorship or administrative services arrangements, if any; and deliver such
Physician Agreement and list of arrangements to Association contemporaneously with
the execution of this Agreement. The obligation of Physician to provide and update the
list of existing directorship or administrative
services arrangements shall be ongoing while
this Agreement is in effect.
(c) Physician agrees to comply with any
administrative and clinical policies, rules,
and procedures of Association (including, but
not limited to, any utilization management,
quality improvement program, peer review
process, privacy practices, and compliance
program), which may be implemented and/or
amended in the Association’s sole discretion
from time to time. Further, Physician agrees
to be bound by all of the standards, policies,

39a
rules, and regulations adopted or utilized by
third party payors from time to time including
Medicare and Medicaid (“Payors”) which
cover his Services.
(d) The relationship between Association
and Physician is that of an independent contractor. Physician has no authority to enter
into any contract binding Association or to
create an obligation on behalf of Association
without written authorization from Association. In the performance of the work, duties,
and obligations specified in this Agreement, it
is understood and agreed by the parties that
Physician is at all times acting and performing as an independent contractor to Association. Association shall not withhold taxes,
social security, unemployment insurance, workers’ compensation, or any other withholding or
payment established pursuant to any law or
the requirements of any governmental body
or make available to Physician any of the benefits afforded to employees of Association. All
such payments, withholdings and benefits, if
any, are the sole responsibility of Physician
and Physician accepts responsibility for the
payment of any such compensation for the
performance of Services rendered under this
Agreement.
Docket no. 59-3. Perry understood that the Agreement
stated he was going to be an independent contractor,
that he would not get a W-2 or have taxes withheld,
and that PICCS would not provide benefits. Perry depo.
at 96-97, 100-01. Section 7 states,

40a
7. Loyalty to Association. During this
Agreement and except to the [extent] written
consent is given as stated herein, Physician
shall devote Physician’s full, entire and undivided professional time and attention to the
practice of medicine for Association and in furtherance of Association’s best interests. Physician shall not engage in professional work
for pay, compensation or other remuneration
in Physician’s individual capacity or in association with others not employed by Association, nor receive any compensation therefore,
without the express written consent of the
Board of Directors of Association; however,
Section 7 is not intended to require Physician
to obtain Association’s consent for such activities of Physician during Physician’s scheduled time off to include Physician’s request to
provide his professional services to an urgent
care facility located outside of the state of
Texas.
Id. The parties disagree as to whether section 7 precluded Perry from working anywhere else in Texas during his time off. Perry asserts he could only work in
Texas with prior written consent, while PICCS asserts
he could work wherever he wanted in his time off. Dr.
Gowan states that the caveat was added to address
Perry’s concerns, but was not needed since he could already work wherever he wanted when he was not
scheduled to be in-house or on call at the Hospital. It
is undisputed that Perry also worked for various Kids
Time Pediatrics locations in Georgia.

41a
The PSA further provides,
Physician’s Services. The delivery of professional medical services by a physician requires the exercise of independent medical
judgment that is not and cannot be within the
right of control of any person or entity other
than a licensed physician providing the direct
hands on care to a patient. Association and
Physician acknowledge that Association does
not have the control or the right to control the
manner, means, and details of Physician in
such regard and shall take no action to do so.
Rather, insofar as the healthcare decisions are
made in providing medical or surgical services
to a patient under this Agreement, Physician
shall, at all times, be regarded as acting in his
individual capacity as an independent contractor and not as an employee of Association
as that term is utilized in Section 301.010 of
the Texas Business Organizations Code.
PICCS agreed to pay Perry a fixed annual salary,
and Perry was precluded from billing directly any patients or payors for services provided pursuant to the
Agreement. PICCS was given exclusive authority to
determine the amount and nature of all fees and the
procedure for establishing the fees to be charged by patients, and all fees generated from services provided by
Perry pursuant to the Agreement belonged to PICCS.
As to benefits, “Physician shall not be entitled to
any benefits including those furnished to employees of
Association.” As to expenses, “Physician may incur ordinary, necessary, and reasonable expenses relating to

42a
automobile, auto insurance, cell phone, subscriptions
and fees, license and dues, educational expenses, and
other similar items. Physician shall carry a cell phone
to facilitate communication between Association and
Physician. All of the foregoing expenses shall be borne
solely by Physician.”
The PSA required Perry to maintain, at his sole
expense, a professional liability insurance policy and
required Perry to report “adverse actions” to PICCS.
The Agreement could be terminated by either PICCS
or Perry without cause at any time after the expiration
of the first twelve months following the commencement date upon 90-days prior written notice or a
shorter period mutually agreed upon. The PSA further
automatically terminated upon certain occurrences,
such as cancellation of malpractice coverage, “Physician conducts himself in a manner that Association determines in good faith to be unethical, unprofessional,
unlawful, or fraudulent, is detrimental to patient care,
or impairs the reputation or operations of Association”,
“Upon NCBH’s request in accordance with its Medical
Staff Bylaws for the removal of Physician due to not
meeting the standard of care for rendering patient care
services, or that the health, safety, or welfare of patients could be jeopardized by continued services of
Physician,” and “Any termination or non-renewal of
the Coverage Agreement, or the provision of Physician’s services under the Coverage Agreement are
suspended, or Physician is otherwise removed from
providing services under the Coverage Agreement.”

43a
As required by the Coverage Agreement, Dr. Perry
signed the Physician Agreement on March 26, 2015.
Docket no. 59-3. The Physician Agreement states that
the Physician understands he is bound by all terms
and conditions of the Coverage Agreement and further
states, “In consideration of my approval by Hospital to
provide services at North Central Baptist Hospital,
pursuant to the Agreement, I knowingly and voluntarily agree” that:
(1) it is in the best interest of Hospital’s ability
to provide quality patient care in a cost-effective and efficient manner for Hospital to contract with an exclusive provider and, upon
expiration or termination of the Coverage
Agreement, Hospital shall have the right to
grant an exclusive contract to any person or
entity; (2) the Medical Staff Bylaws shall control any termination of Medical Staff membership and/or clinical privileges and unless and
until such loss of membership occurs, he is
bound by and subject to all provisions of the
Bylaws, Rules and Regulations of Hospital
and/or its Medical Staff; and (3) if the Agreement expires and/or terminates for any reason, and I continue to hold Medical Staff
membership and/or exercise clinical privileges thereafter, this shall not, in any way,
waive or restrain the Hospital from granting
an exclusive contract for the provision of Services to any person or entity.
And on September 14, 2015, Dr. Perry signed a
“Policy Acknowledgement” from Baptist Health System stating that he received and understands it is his

44a
responsibility to read, understand, become familiar
with and comply with (1) Medical Staff By-Laws;
(2) Medical Staff Rules and Regulations; and (3) Tenet
Standards of Conduct. Docket no. 59-11.
PICCS paid Perry an annual salary, paid monthly
by direct deposit. Perry depo. at 77. PICCS issued
1099s to Perry for each year he performed services under the PSA. Docket no. 59-1; Docket no. 59-6. No deductions or withholding from his pay were made for
taxes, retirement, or other benefits. Perry was responsible for purchasing his own medical/health insurance;
PICCS did not provide any medical benefits. Perry
depo. at 68. PICCS did not have a leave policy and
there was no annual leave provided.
Plaintiff alleges that in October 2016, “Dr. Aviles
[of PICCS] joined a group of NCBH nurses in accusing
Dr. Perry of racial bias or prejudice in favor of Blacks
or African-Americans,” and alleges that Dr. Aviles and
Dr. Fernandez made racist comments about other
African-American co-workers. Docket no. 28 at 8.
Plaintiff complained in writing to the Hospital. In
November 2016, several nurses threatened to quit if
Dr. Perry was not removed from his position at the
Hospital. Docket no. 28 at 10. The Hospital states it
also received complaints about Plaintiff from patient
families. On November 18, 2016, Dr. Kellis (Market
Chief Medical Officer), Dr. Chavez, and Plaintiff met
to discuss the complaints received from nursing staff
and parents. Dr. Kellis told Plaintiff his behavior must
change to ensure patient safety and the Hospital
would not tolerate further complaints. On December 6,

45a
2016, Dr. Aviles (of PICCS) wrote a letter expressing
concerns and stating she would refuse to work with
Plaintiff again if the situation did not improve. On December 20, 2016, the Hospital received a complaint
from a pediatric patient’s family about Plaintiff.
On January 9, 2017, Dr. Kellis, Dr. Chavez (PICCS,
PICU Director), Dr. Gowan (PICCS), and Dr. Carvajal
(PICCS) met to discuss Plaintiff and his continued assignment at the Hospital. Dr. Kellis sent an email to
Bill Waechter stating, “we reached the decision to tell
Dr. Perry that he is being terminated without cause,
which invokes a 90 day out clause in the contract (he
has to be gone within 90 days), and which also minimizes both our liability.” Dr. Gowan states that Perry’s
conduct met the inappropriate behavior standard in
the Medical Staff Rules & Regulations and could jeopardize patient care or safety. Gowan Decl. p. 40-41.
Dr. Gowan states that because the request from
the Hospital complied with the medical staff rules &
regulations, PICCS terminated Plaintiff ’s PSA. Gowan
Decl. p. 41. Dr. Perry’s relationship with PICCS was
terminated by Dr. Carvajal (of PICCS) by letter dated
January 12, 2017, informing him that the PSA was being terminated by the PICCS Board of Directors, without cause, effective in 90 days. Docket no. 57-6; Docket
no. 60-2 (Pl. Ex. 2). Dr. Perry continued to work at the
Hospital until about February 28, 2017. Docket no. 578. Waechter testified that Perry’s staff membership
and privileges with the System were revoked by the
Medical Staff when he failed to renew his malpractice
insurance. Waechter Decl.

46a
Analysis – Title VII Claims
To establish Title VII liability on the part of a
particular defendant, the plaintiff must prove both
that the defendant meets Title VII’s definition of “employer,” i.e., “a person engaged in an industry affecting
commerce who has fifteen or more employees,” and
that an employment relationship existed between him
and that defendant. Muhammad v. Dallas Cty. Cmty.
Supervision & Corrs., 479 F.3d 377, 380 (5th Cir. 2007).
Thus, the Court must follow a two-step inquiry: (1) did
the defendant have at least 15 employees during the
requisite time period? and, if so, (2) did an employment
relationship exist between plaintiff and the defendant?
Id.
Defendant PICCS moves for summary judgment
on Plaintiff ’s Title VII claims on the following bases:
(1) that PICCS is not an “employer” under Title VII because it does not have at least 15 employees and did
not during the relevant period (2015 to 2017); (2) Dr.
Perry was not an employee of PICCS, but was only an
independent contractor; and (3) PICCS and VHS were
not joint employers. VHS moves for summary judgment on Plaintiff ’s Title VII claims on the issue of
employee status, arguing that it did not have an employment relationship with Plaintiff as a matter of law
and it was not a joint employer.
Whether PICCS is an employer under Title VII?
Title VII defines “employer” as “a person engaged
in an industry affecting commerce who has fifteen or

47a
more employees for each working day in each of twenty
or more calendar weeks in the current or preceding calendar year, and any agent of such a person.” 42 U.S.C.
§ 2000e(b). This is an element of Plaintiff ’s claim for
relief. Arbaugh v. Y&H Corp., 546 U.S. 500, 516, 126
S.Ct. 1235, 163 L.Ed.2d 1097 (2006). PICCS provides
evidence via the Affidavit of Thomas Gowan that it did
not employ 15 or more employees during the relevant
time period. PICCS has three directors/shareholders,
contracted with two individuals to do secretarial work,
and entered into service agreements with Plaintiff and
two other physicians during the relevant time. Even if
all of these individuals were employees, they would not
meet the 15-employee requirement.
Plaintiff provides no evidence or argument refuting PICCS’s assertion that it has not had 15 or more
employees during the relevant time period. And Plaintiff does not allege that any other persons were employees of PICCS other than those identified by PICCS
in its motion, so as to increase the number above the
threshold. In fact, Plaintiff does not even allege in his
Complaint that PICCS employed 15 or more people; he
alleges only that VHS employed more than 500 employees. Docket no. 28 para 8. Thus, standing alone,
PICCS does not meet the statutory definition of “employer” under Title VII because the undisputed summary-judgment evidence is that it did not employ at
least 15 employees during the relevant time.
Plaintiff contends that PICCS may nevertheless
be liable under Title VII under either a joint employer
or single integrated enterprise (also known as “single

48a
employer”) theory. Plaintiff is seeking to hold PICCS
liable as an employer by aggregating PICCS’s employees with those of Defendant VHS, which does employ
more than 15 people. Docket no. 28 para. 7. A single
employer situation exists where two nominally separate entities are actually part of a single integrated
enterprise (e.g., parent and wholly-owned subsidiary
corporations, or separate corporations under common
ownership and management), whereas in a joint employer relationship, separate legal entities handle certain aspects of an employer-employee relationship
jointly. Arculeo v. On-Site Sales & Mktg., L.L.C., 425
F.3d 193, 198 (2d Cir. 2005) (quotation marks and citations omitted). “The joint employer doctrine has been
applied to temporary employment or staffing agencies
and their client entities; it has also been applied to contractors and subcontractors and other scenarios where
two separate entities have control over an employee’s
employment.” Daniel v. T&M Protection Resources,
Inc., 992 F. Supp. 2d 302, 314 (S.D.N.Y. 2014). The Second Circuit described the difference between the two
tests in Engelhardt v. S.P. Richards Co., Inc., 472 F.3d
1, 4 n.2 (1st Cir. 2006):
The difference between the “joint employer”
and the “integrated employer” tests turns on
whether the plaintiff seeks to impose liability
on her legal employer or another entity. Compare 29 C.F.R. § 825.106 with § 825.104(c)(2).
The former [joint employer] looks to whether
there are sufficient indicia of an employer/
employee relationship to justify imposing liability on the plaintiff ’s non-legal employer.

49a
The latter [single integrated enterprise] applies where, as here, liability is sought to be
imposed on the legal employer by arguing
that another entity is sufficiently related such
that its actions, or in this case, size, can be attributable to the legal employer.
In Schweitzer v. Advanced Telemarketing Corp.,
104 F.3d 761 (5th Cir. 1997), the Fifth Circuit held that
“the hybrid test should be used as an initial inquiry to
resolve, if need be, whether a plaintiff is an employee
of the defendant (or one of the defendants, in a multi
defendant case) for the purposes of Title VII” and “[i]f
the plaintiff is found to be an employee of one of the
defendants under the hybrid test, but questions remain whether a second (or additional) defendant is
sufficiently connected to the employer-defendant so as
to be considered a single employer, a Trevino analysis
should be conducted.” Id. at 764. The law is settled
that, under the single integrated enterprise doctrine,
where one putative employer does not meet the statutory numerosity requirement, it may nevertheless be
liable under Title VII if it is part of a single integrated
enterprise with another entity if their combined employees exceed the minimum. Numerous cases allow
aggregation under a single integrated enterprise (single employer) theory as set forth in Trevino v. Celanese
Corp., 701 F.2d 397 (5th Cir. 1983) to expose to liability
an entity who does not meet the numerosity requirement alone. See, e.g., Guillory v. Rainbow Chrysler Dodge
Jeep, LLC, 158 F. App’x 536 (5th Cir. 2005) (applying
Trevino single employer test to determine whether
to aggregate one entity’s employee with employees of

50a
another for purposes of Title VII); Badii v. Rick’s Cabaret Int’l, Inc., No. 3:12-CV-4541-B, 2013 WL 12124034,
at *6 (N.D. Tex. June 16, 2013) (“[T]he Trevino test has
been utilized to aggregate the number of employees of
multiple entities for the determination of whether an
employer meets the statutory definition under Title
VII.”).
Unlike the single integrated enterprise doctrine,
not all employees of two joint employers are aggregated for purposes of Title VII’s numerosity requirement.
Plaintiff misreads the EEOC Compliance Manual to
argue that all employees of VHS can be attributed to
PICCS. The Manual states, “To determine whether a
respondent is covered, count the number of individuals
employed by the respondent alone and the employees
jointly employed by the respondent and other entities.”
EEOC Compliance Manual § 2-III(B)(1)(a) (iii)(b). It
does not state that all employees of both alleged joint
employers may be counted. Rather, employees for
which a defendant is a joint employer may be counted
in addition to the defendant’s regular employees to
reach the numerosity requirement, or a court may find
that the two defendants jointly employ more than fifteen individuals. See Arculeo v. On-Site Sales & Mktg.,
LLC, 425 F.3d 193, 198 (2d Cir. 2005) (“A joint undertaking by two entities with respect to employment may
furnish justification for adding to the employees of one
employer those employees of another who are jointly
employed by the first, but such joint undertaking
does not furnish logical justification for adding together all the employees of both employers, unless the

51a
circumstances justify the conclusion that all the employees of one are jointly employed by the other.”);
Virgo v. Riviera Beach Assocs., Ltd., 30 F.3d 1350 (11th
Cir. 1994) (joint employers together jointly employed
more than fifteen employees). Thus, in order to hold
PICCS liable under Title VII, Plaintiff must show that
he was an employee of PICCS and that PICCS and the
Hospital/VHS were a single integrated enterprise.
Whether Perry was an employee of PICCS?
To determine whether a person is an employee
versus an independent contractor, the controlling
standard is the “hybrid economic realities/common law
control test.” Juino v. Livingston Parish Fire Dist. No.
5, 717 F.3d 431, 434 (5th Cir. 2013). The economic-realities portion of the test asks whether a putative employee, as a matter of economic reality, is dependent
upon the business to which he renders service or is in
business for himself. Id. at 434. This includes whether
the worker’s opportunity for profit or loss is determined by the alleged employer and whether the
worker worked exclusively for the alleged employer, as
well as “whether the alleged employer paid the employee’s salary, withheld taxes, provided benefits, and
set the terms and conditions of employment.” Muhammad, 479 F.3d at 380.
The common-law control portion of the test, which
courts should emphasize over the economic realities
portion, assesses “the extent to which the one for whom
the work is being done has the right to control the

52a
details and means by which the work is to be performed.” Juino, 717 F.3d at 434. When examining the
control component, courts have focused on whether the
alleged employer has the right to hire, fire, supervise,
and set the work schedule of the employee. Muhammad,
479 F.3d at 380.The Fifth Circuit has stated that the
following factors are also pertinent to the analysis:
(1) the kind of occupation, with reference to
whether the work usually is done under the
direction of a supervisor or is done by a specialist without supervision; (2) the skill required in the particular occupation; (3) whether
the “employer” or the individual in question
furnishes the equipment used and the place of
work; (4) the length of time during which the
individual has worked; (5) the method of payment, whether by time or by the job; (6) the
manner in which the work relationship is terminated [,] i.e., by one or both parties, with or
without notice and explanation; (7) whether
annual leave is afforded; (8) whether the work
is an integral part of the business of the “employer”[,] (9) whether the worker accumulates
retirement benefits; (10) whether the “employer” pays social security taxes; and (11) the
intention of the parties.
Id. at 434-35. The “hybrid economic realities/common
law control test” is necessarily a fact-specific inquiry.
Muhammad, 479 F.3d at 383.
Viewing the facts in the light most favorable to
Perry, the Court cannot conclude that Perry was an independent contractor as a matter of law. The economic

53a
realities cut both ways. Perry was required to devote
full-time work to PICCS, and it is disputed whether he
was permitted to work at other places in Texas during
his time off. PICCS was Perry’s primary source of income, and his relationship with PICCS (the requirement to work for PICCS full-time and PICCS having
the exclusive right to charge and bill his patients at
the Hospital) significantly limited his other opportunities for profit. In addition, PICCS paid Perry an annual
salary, paid monthly by direct deposit, and Perry was
not paid by the job. Perry depo. at 77. PICCS billed the
patients for services provided by Perry at the Hospital,
and Perry was prohibited from billing patients or from
determining the amount and nature of all fees. Thus,
Perry had no opportunities to increase his profits or income by working more hours or increasing billing rates
at the Hospital. These factors weigh in favor of employment status. However, other factors, such as the fact
that no benefits were provided, no leave was accrued,
no taxes were withheld, Perry paid for his own insurance, licensing, and education costs, PICCS issued
1099s to Perry for each year he worked, and the agreement for an independent contractor arrangement
weigh in favor of independent contractor status.1 Perry
1

Plaintiff submits a letter from the IRS dated June 25, 2018
concerning IRS Form SS-8, “Determination of Worker Status for
Purposes of Federal Employment Taxes and Income Tax Withholding,” in which the IRS determined, based on information provided by Plaintiff, that he was an employee of PICCS for federal
tax purposes. Docket no. 60-2. Defendants’ objection to Plaintiff ’s
use of the IRS Form SS-8 because it is not authenticated lacks
merit. Since the 2010 amendment to Rule 56, “[a]t the summary
judgment stage, materials cited to support or dispute a fact need

54a
has provided sufficient evidence to raise a fact issue as
to whether, as a matter of economic reality, he was an
employee of PICCS.
As to the control factors, PICCS had discretion to
“hire” by contracting with qualified pediatric physicians who met the criteria in the Coverage Agreement
and Medical Staff Bylaws. PICCS decided with whom
it would contract as a Physician to provide services under the Coverage Agreement with VHS. PICCS says it
had no right to control Plaintiff ’s termination because
termination was governed by the PSA and the Coverage Agreement, which triggered the Medical Staff Bylaws. PICCS asserts that because Plaintiff violated the
Bylaws and refused to modify his behavior despite numerous opportunities, Bill Waechter, the Hospital’s
President, was required to request his removal, and
PICCS exercised its right under the Agreement to
terminate its contractual relationship with Plaintiff.
But whether PICCS felt contractually constrained to
only be capable of being ‘presented in a form that would be admissible in evidence.’ ” LSR Consulting, LLC v. Wells Fargo Bank,
N.A., 835 F.3d 530, 534 (5th Cir. 2016) (emphasis in original)
(quoting FED. R. CIV. P. 56(c)(2)). Thus, “evidence need not be
authenticated or otherwise presented in an admissible form.”
Maurer v. Independence Town, 870 F.3d 380, 384 (5th Cir. 2017).
In detailing how Plaintiff should have authenticated the Form,
Defendants essentially concede that the Form could be authenticated. Thus, this objection is overruled. However, the Court
agrees that the Form is only applicable to PICCS, as it does not
make a determination as to VHS. Further, because the Court
finds that fact issues remain even without considering the form,
the objections that the Form is incomplete, misleading, untrustworthy, and contains hearsay are dismissed as moot.

55a
terminate the PSA overlooks the other ways in which
PICCS had the ability to “fire” Plaintiff by terminating
the PSA with or without cause, which would simultaneously terminate Plaintiff ’s work at the Hospital,
since PICCS was the exclusive provider of PICU physicians at the Hospital.
As to control of Perry’s schedule, the relevant contracts granted control of Plaintiff ’s work schedule to
PICCS. The PSA states, “Physician agrees to provide
call coverage services and render professional medical
services in the specialty of pediatric critical care medicine exclusively for . . . and on behalf of PICCS within
the scope of Physician’s license at [the Hospital] . . .
on a schedule as determined by [PICCS].” (Emphasis
added.) The Coverage Agreement provided that the Director of the PICU (PICCS-appointed, VHS-approved
Dr. Chavez) would establish schedules for all services
provided by Physicians in accordance with the terms
of the Agreement. The Coverage Agreement further
provided that, on or before the first of the month,
PICCS would provide to the Hospital CEO a schedule
of Physicians arranged to provide call coverage during
the calendar month. Consistent with the relevant contracts, Perry testified that Chavez set the work schedule. Perry depo. at 57, 73, 110.
PICCS contends that it did not unilaterally control
Plaintiff ’s schedule, but instead the PICCS Physicians
worked cooperatively to set the schedule. Dr. Chavez
testified, “We get together, and we select the way to do
the schedule, and then we try to attach to it as much
as possible.” Id. at 61. Chavez testified that changes to

56a
the schedule were agreed upon. Id. at 63. PICCS further contends that Perry had significant control over
his own schedule, demonstrated by the fact that he
traveled extensively during his contract term, including taking a trip to Australia. Docket no. 58 at 24 &
n.14; Perry depo. at 74 (Australia trip). But Perry testified that Chavez had issued a schedule on a 12-week
cycle, and he was able to plan his trips around his
scheduled shifts and rarely needed to change the
schedule. Perry depo. at 74, 91-92. However, Perry was
able to reject the proposed schedule that conflicted
with his Australia trip, and took the trip without issue,
and was able to get enough days (though not all he
wanted) for a conference in Hawaii. Perry depo. at 74.
Perry further contends that PICCS controlled where
he could work in his time off from the Hospital, since
under his interpretation of the PSA he could not work
anywhere else in Texas without prior approval. Perry
depo. at 76, 89. The parties agree that Plaintiff could
work for, and did work for, Georgia Kids Time Pediatrics locations when not on call. Perry depo. at 76;
PICCS Ex. O; PICCS Ex. P.2 PICCS contends that “the
intent of the parties was for Plaintiff to be at the
[PICU] when he scheduled himself to provide services
and not servicing any other entity (medical or not) during those service times contemporaneously; however,
Plaintiff was free to do what he wanted (whether work
another job – medical or not, or otherwise) during the
2

The evidence indicates that Perry maintained his primary
residence in Georgia, and traveled to Texas when he was on-call
at the Hospital. Perry depo. at 94.

57a
hours he was not scheduled to perform services under
the Agreement.” Docket no. 58 at 10. Material fact issues remain concerning the extent to which PICCS
controlled Plaintiff ’s schedule at the Hospital and constrained Plaintiff ’s ability to work at other locations in
Texas during his time off from the Hospital.
Concerning the right to supervise, PICCS and
Perry agreed that PICCS does not control or have the
right to control the manner, means, and details of his
work with regard to healthcare and would take no action to do so. They further agreed that “Physician controls the quality and manner in which Physician’s
Services are rendered to patients.” PICCS asserts that
medical specialists usually work without supervision,
and Plaintiff confirmed he did not need the assistance
of other physicians to do his work. Perry depo. at 80.
Perry testified that Dr. Chavez always supported his
independent decisionmaking as a physician and let
him make the final decision on his patients, and he was
the only one making decisions on his medical license.
Perry depo. at 105. The fact that Plaintiff is a highly
skilled medical specialist who typically works without
supervision and exercises independent professional
judgment weighs against employment and in favor of
independent contractor status.
While Perry exercised independent medical judgment and controlled the manner and means of caring
for his patients without supervision, he was required
to submit to certain supervision from PICCS. He
agreed to “comply with any administrative and clinical
policies, rules, and procedures of [PICCS] (including,

58a
but not limited to, any utilization management, quality
improvement program, peer review process, privacy
practices, and compliance program), which may be
implemented and/or amended in [PICCS’s] sole discretion.” In addition, Perry agreed to monitoring for
quality assurance and risk prevention programs instituted by PICCS. However, it was made clear that
“[n]othing in this Agreement including Physician’s
participation in the Program shall be construed to interfere with or in any way affect Physician’s obligation
as a licensed physician to exercise his independent professional medical judgment when rendering health
care services to patients.”
Perry was required to maintain a cell phone to facilitate communication with PICCS, at his expense.
Perry was also required to report adverse actions to
PICCS. Plaintiff further contends that PICCS exerted
control by providing certain criteria to Dr. Perry
through Dr. Chavez, without discussion, that he had to
follow, requiring that certain medicines be used, requiring him to get medical malpractice insurance from
a particular provider, and requiring him to accept all
patients. Depo at 17, 19, 41-42, 62-63, 113-14. PICCS
disputes these assertions, stating that Perry ignored
some of these supposed examples of control, showing
his independence, and that some of these were regulatory safety requirements that were not imposed by
PICCS but by federal law (e.g., the Emergency Medical
Treatment & Labor Act of 1986). Material fact issues
exist concerning the extent to which PICCS supervised
Plaintiff.

59a
The case law demonstrates that the conclusion of
whether a worker is an employee or independent contractor is highly fact specific, and here material fact issues concerning some of the underlying facts preclude
summary judgment on the issue of whether Plaintiff
had an employment relationship with PICCS. Thus,
the Court must determine whether PICCS and VHS
are a single business enterprise.
Whether PICCS and VHS are a single integrated
enterprise (single employer)?
According to the EEOC Compliance Manual, “If an
employer does not have the minimum number of employees to meet the statutory requirement, it is still
covered if it is part of an ‘integrated enterprise’ that,
overall, meets the requirement. An integrated enterprise is one in which the operations of two or more employers are considered so intertwined that they can be
considered the single employer of the charging party.
The separate entities that form an integrated enterprise are treated as a single employer for purposes of
both coverage and liability.” EEOC Compliance Manual 2-III B1(a) iii(a). According to the Manual, the
following factors are relevant to the issue of centralized control of labor relations: Whether there is a centralized source of authority where personnel policy is
developed and implemented. Whether one entity maintains personnel records and screens and tests applicants for employment. Whether the entities share a
personnel department and whether inter-company
transfers and promotions of personnel are common.

60a
Whether the same persons make the employment decisions for both entities.
The Fifth Circuit set forth the applicable test for
single integrated enterprises in Trevino v. Celanese
Corp., 701 F.2d 397 (5th Cir. 1983). Factors considered
in determining whether distinct entities constitute an
integrated enterprise are (1) interrelation of operations, (2) centralized control of labor relations, (3) common management, and (4) common ownership or
financial control, with centralized control of labor relations being the most important factor. Id. at 404. This
criterion has been further refined to the point that
“[t]he critical question to be answered then is: What
entity made the final decisions regarding employment
matters related to the person claiming discrimination?” Id.
Defendants argue that the single employer test is
limited to parent-subsidiary situations and does not
apply here. Defendants argue that, when service contracts are involved, courts apply the joint employer
test, not the single integrated enterprise test. Docket
no. 66 at 16 (citing EEOC v. Valero Refining-Tex. L.P.,
Civil Action no. 3:10-CV-398, 2013 WL 1168620, at *3
(S.D. Tex. 2013 Mar. 13, 2013)) (“[T]he ‘integratedenterprise test is not a good fit for a case involving
one company with a service contract with the other,
as opposed to affiliated or related companies such
as a parent and subsidiary’ ”). But the EEOC Compliance Manual states that “while this issue often arises
where there is a parent-subsidiary relationship, a parent-subsidiary relationship is not required for two

61a
companies to be considered an integrated enterprise.”
EEOC Compliance Manual 2-III B1(a) iii(a). The
Trevino case establishing the single integrated enterprise standard involved a worker employed by ABI,
which provided maintenance and operating employees
to Celanese, not a parent-subsidiary relationship. And
in fact, this Court has previously applied the Trevino
test in a similar factual scenario. Johnson v. El Paso
Pathology Grp., P.A., 868 F. Supp. 852 (W.D. Tex. 1994).3
In Johnson, the plaintiff pathologist contracted
with a physician group (which had fewer than 15 employees) and practiced at the System (which had more
3

The Court applied the Trevino test, but referred to the defendants as joint employers. Confusingly, “[t]he single-employer
test is often referred to as the . . . joint-employer test.” Patterson
v. Yazoo City, Miss., 847 F. Supp. 2d 924, 932 n.20 (S.D. Miss.
2012). However, though sometimes muddled or conflated, the single integrated enterprise (single employer) theory and the joint
employer theory of liability are generally recognized as distinct
theories by the Fifth Circuit and other courts. See Turner v.
Baylor Richardson Med. Ctr., 476 F.3d 337 (5th Cir. 2007) (affirming summary judgment on single employer theory and finding
joint employer theory waived, but also lacking merit because the
plaintiff made no showing that the alleged joint employer “retained for itself sufficient control of the terms and conditions of
[plaintiff ’s] employment”); National Labor Relations Board v.
Browning-Ferris Industrs. of Penn., Inc., 691 F.2d 1117 (3d Cir.
1982) (“The ‘joint employer’ and ‘single employer’ concepts are
distinct. Admittedly, there has been a blurring of these concepts
at times by some courts and by the Board. However, as the Supreme Court itself has recognized, the two concepts approach the
issue of ‘who is the employer,’ from two different viewpoints. As
such, different standards are required for each-that enunciated in
Radio Union v. Broadcast Service of Mobile, Inc., supra, to apply
in the ‘single employer’ context and that set out in Boire v. Greyhound Corp., supra, to apply in the ‘joint employer’ context.”).

62a
than 15 employees) and sought to hold both liable. The
district court found the requisite control of labor relations because “the [Hospital] System was significantly
involved and ultimately controlled the [Physician]
Group’s employment relations with its physicians.”
868 F. Supp. at 860. Under the agreement between
the Hospital System and the Physician Group, “the
number of physicians retained by the Group was to be
determined in consultation with and upon the written
consent of the System,” “the Group had to obtain the
written approval of the System prior to replacing existing physicians or to engaging additional physicians,
. . . the System administered the compensation and
benefits for the physicians,” and “the Group and the
System were a team, making joint decisions.” Id. By
contract and implementation, the System reserved for
itself the ultimate decisions regarding physician employment matters for the Group, and was jointly involved in the plaintiff ’s termination. Id. Moreover, the
System had complete control over the operations,
management, and finances of the Physician Group.
Id. The district court found the fact situation suited to
an analysis under Trevino, and further found that, under the Trevino factors, the defendants were the single
employer of the plaintiff. The scenario in Johnson,
however, involves a much higher level of integrated
control of labor relations than is present in this case.
In Schweitzer, 104 F.3d at 765, the Fifth Circuit
also emphasized that we must focus on the control of
the second company over the employment decisions of
the first company, stating that evidence “central to

63a
finding a single employer relationship” would be “involvement in the daily employment decisions” of the
first company. In Lusk v. Foxmeyer Health Corp., 129
F.3d 773, 778 (5th Cir. 1997), it stated that “[s]ome
nexus to the [first company’s] daily employment decisions must be shown.” The focus is on the core activities regulated by the anti-discrimination laws. Id. at
777. In Trevino, for example, many workers transferred from ABI to Celanese, Celanese managers and
supervisors on numerous occasions authorized lay-offs,
recalls, promotions and transfers of ABI employees to
Celanese, and the record contained over one hundred
personnel documents cataloguing the promotions and
pay increases of ABI employees which bore the signatures of various Celanese managers purportedly acting
as “General Foreman” or “Foreman” for ABI. 701 F.2d
at 400.
In Lusk, the Fifth Circuit indicated that “[o]nly
evidence of control suggesting a significant departure
from the ordinary relationship between a parent and
its subsidiary – domination similar to that which justifies piercing the corporate veil – is sufficient to rebut
this presumption [of limited liability], and to permit an
inference that the parent corporation was a final decision-maker in its subsidiary’s employment decisions.”
Lusk, 129 F.3d at 778. Further, “The interrelation of
operations element of the single employer test ultimately focuses on whether the parent corporation excessively influenced or interfered with the business
operations of its subsidiary, that is, whether the parent
actually exercised a degree of control beyond that

64a
found in the typical parent-subsidiary relationship.”
Id. “Attention to detail,” not general oversight, is the
hallmark of interrelated operations. Id. Relevant factors suggesting the existence of interrelated operations
include evidence that the parent: (1) was involved directly in the subsidiary’s daily decisions relating to
production, distribution, marketing, and advertising;
(2) shared employees, services, records, and equipment
with the subsidiary; (3) commingled bank accounts,
accounts receivable, inventories, and credit lines;
(4) maintained the subsidiary’s books; (5) issued the
subsidiary’s paychecks; or (6) prepared and filed the
subsidiary’s tax returns. Id.
There is no such evidence of the type found in Trevino or discussed in Lusk in this case. Plaintiff ’s assertion that the fact that Dana Kellis and Bill Waechter
of VHS made the decision to terminate Plaintiff ’s
contract together with PICCS “shows the first three
factors of the single enterprise” test is incorrect. Nevertheless, Plaintiff contends that he shows a single integrated enterprise based on the fact that VHS and
PICCS jointly decided to terminate Perry, that VHS
Medical Staff Services had the power to discipline physicians, as well as the Hospital’s retaining substantial
involvement and supervisory authority over the people
who worked for PICCS, including (1) being given approval over who could be selected as the Director of the
PICU and requiring that the Director work exclusively
for the Hospital, (2) requiring the PICCS physicians to
be able to perform certain services, have certain qualifications, and submit certain records to the Hospital,

65a
which then became the exclusive property of the Hospital; (3) requiring PICCS to pay physicians “fair
market value,” (4) requiring PICCS physicians to be
subject to all rules, regulations, and policies of the Hospital, and (5) retaining power and authority to demand
that any PICCS physician be removed, with which
PICCS had to comply. Docket no. 60 at 6. Further, it
appears that the Hospital had some involvement in determining that a “a minimum of 3 full time Physicians
will be necessary.” Coverage Agreement Ex. B.
Although close, Fifth Circuit cases indicate the
test is not met here. And most cases applying the single
integrated employer test in other circuits have found
that the test was not met. Grace v. USCAR, 521 F.3d
655, 664 (6th Cir. 2008) (“[O]ther circuits that have addressed the issue have generally found that the test
was not met.”). The Court finds that, even taken in the
light most favorable to Plaintiff, he fails to show the
requisite degree of interrelation in daily employment
matters required for a single business enterprise. Although the Hospital retained the right to request
Plaintiff ’s removal, and exercised that right, there is
simply insufficient evidence for a reasonable factfinder
to conclude that the Hospital was “so involved in the
daily employment decisions of [PICCS] as to justify
treating the two [entities] as a single employer.”
Thus, Plaintiff cannot treat PICCS and VHS as a
single employer, and cannot attribute VHS’s employees
to PICCS. Because they are not a single integrated enterprise, as a matter of law, PICCS does not have sufficient employees and is therefore not an employer for

66a
purposes of Title VII. However, questions remain
whether PICCS and VHS were nevertheless joint employers of Perry and thus whether VHS can be liable
as a joint employer even though PICCS is not an employer.
Whether VHS retained sufficient control to be
considered Perry’s joint employer?
Plaintiff contends that VHS is his joint employer,
relying on Burton v. Freescale Semiconductor, Inc., 798
F.3d 222 (5th Cir. 2015), in which the Fifth Circuit analyzed whether a client agency employed a worker supplied by a temporary staffing agency using the hybrid
control test. In Burton, the plaintiff worked for Freescale as a “temp” employee provided by Manpower. The
Fifth Circuit found adequate evidence of an employment relationship where the control factors showed
that (1) Freescale had the right to demand the plaintiff ’s termination from the assignment, (2) Freescale
supervised her, (3) complaints against her were made
by Freescale personnel, (4) her nominal Manpower
supervisor worked primarily at a different Freescale
location and never observed her while she worked,
(5) Freescale employees delivered on-the-job corrections and admonishments, and (6) Freescale decided
and insisted that the plaintiff be fired. Id. at 227. Thus,
even though the economic realities inquiry favored
Freescale insofar as it did not handle payroll, withhold
taxes, provide benefits, or set the terms and conditions
of employment for Manpower temps, the common-law
control test was dispositive. Id. at 227-28.

67a
Freescale involves the common situation where a
staffing agency who employs the plaintiff provides the
employee to a client, who is found to be a joint employer. EEOC regulations for the FMLA state, “[J]oint
employment will ordinarily be found to exist when a
temporary placement agency supplies employees to a
second employer.” 29 C.F.R. § 825.106. Other circuit
courts have also held that workers provided by staffing
companies are employees of the client when the client
supervises their daily work. Faush v. Tuesday Morning,
Inc., 808 F.3d 208, 218-19 & n.10 (3d Cir. 2015) (citing
cases from the Fourth Circuit). In those cases, it is not
a question whether the plaintiff is an employee or
independent contractor; the question is whether the
plaintiff, who is clearly an employee of the staffing
agency, is also an employee of the client agency.
In this case, however, Defendants argue that Perry
is an independent contractor and that PICCS does not
concede that it is his employer, and note that numerous
courts have held that physicians with staff privileges
at hospitals are not employees despite the hospital’s
exercise of some control to maintain standards of patient care and record keeping. As noted by the Fourth
Circuit, this control exists for both employee doctors
and for doctors merely enjoying practice privileges at
a facility and is necessitated by the hospitals’ need to
avoid liability, and is thus not a reliable indicator of
whether the doctor is an employee or an independent
contractor at the hospital. Cilecek v. Inova Health Sys.
Servs., 115 F.3d 256, 260 (4th Cir. 1997). The Fifth Circuit has held, “physician staff privileges, as a matter of

68a
law, do not create an employer-employee relationship
for the purpose of maintaining an action under title
VII.” Aziz v. Uvalde Cty. Hosp. Auth., 990 F.2d 626, 1993
WL 117825, at *2 (5th Cir. 1993) (unpublished). And
courts have held that an on-call arrangement between
a physician and a hospital does not render the doctor
an employee. Henry v. Adventist Health Castle Med.
Ctr., 363 F. Supp. 3d 1128, 1134 (D. Haw. 2019) (citing
Alexander v. Rush N. Shore Med. Ctr., 101 F.3d 487, 493
(7th Cir. 1996)). “This is not a case in which [the Hospital] merely leased [physicians] from [PICCS] and
then treated them as its own employees.” Clinton’s
Ditch Co-op Co., Inc. v. N.L.R.B., 778 F.2d 132, 140 (2d
Cir. 1985). Rather, to the extent control was exercised,
it was done so by PICCS, and the Hospital treated
Perry the same as it treated all physicians with staff
privileges.
In Diggs v. Harris Hospital-Methodist, Inc., 847
F.2d 270 (5th Cir. 1988), the Fifth Circuit considered
whether a physician given staff privileges at a hospital
had an employment relationship with the hospital.
While the hospital supplied the tools, staff, and equipment utilized by the physician in delivering medical
care at the hospital, and while it imposed standards
upon those permitted to hold staff privileges, the hospital did not direct the manner or means by which
the physician rendered medical care. The physician
plaintiff treated her patients without direct supervision, and though she was required to have a sponsor
present during surgical procedures, this was to have
someone attest to her essential qualifications rather

69a
than directing the details of her work. The hospital was
not under a duty to admit her patients and did not pay
her for her services. The hospital did not provide salary
or wages to physicians with staff privileges, nor did it
pay their licensing fees, professional dues, insurances,
taxes, or retirement benefits. Thus, there was not an
employer-employee relationship.
VHS notes that, consistent with Diggs, other
courts have consistently held that independent physicians with practice privileges at hospitals are not employees of the hospital. See, e.g., Levitin v. Nw. Commty.
Hosp., 923 F.3d 499 (7th Cir. 2019) (finding no employment relationship using the “economic realities of the
relationship and the degree of control the employer exercises over the alleged employee” test). In Levitin, the
plaintiff owned her own medical practice, billed her patients directly, and filed taxes as a self-employed physician, and the hospital did not provide employment
benefits or pay her licensing dues. Moreover, she set
her own hours, subject only to operating-room availability; she could obtain practice privileges at other hospitals and redirect her patients to those locations; and
she could use her own staff in surgeries; “most importantly, she made the treatment decisions for her
patients.” Id. at 501-02. The restrictions placed on her
by the hospital – on-call demands, medical-education
standards, peer-review processes, and reporting requirements – were insufficient to create an employment relationship. Id. at 502.
It is true that those cases did not involve a doctor
provided to work on a full-time basis to the hospital by

70a
a physician group who had entered into a contractual
relationship with the hospital to be an exclusive provider, as is the case here. See Johnson v. El Paso Pathology Grp., P.A., 868 F. Supp. 852, 861 (W.D. Tex.
1994) (noting that the plaintiff in Diggs was not provided through an association or group performing exclusive services under contract with the hospital and
could not go to other hospitals to earn a living because
other hospitals also had exclusive providers of pathology services). However, those cases are not materially
different when looking at the degree of control exercised by the hospitals over the physicians.
Regardless of whether the physician is an independent physician or part of a physicians group providing exclusive services to the Hospital, the requirement
to comply with detailed hospital regulations and use of
Hospital facilities does not indicate an employment relationship because all doctors, whether employees or
simply those with privileges at the Hospital, must do
so. As the Fourth Circuit reasoned,
While Cilecek certainly retained a professional independence in performing professional services, he also shared a professional
responsibility to cooperate with the hospitals
to maintain standards of patient care, to keep
appropriate records, and to follow established
procedures. This shared control exists both for
employee doctors and for doctors merely enjoying practice privileges at a facility. If the
hospitals did not insist on such details in the
performance of professional services by doctors at their facilities, they would be exposing

71a
themselves to recognized professional liability. Because of the overarching demands of
the medical profession, the tension in professional control between doctors and hospitals
for medical services rendered at hospitals is
not, we believe, a reliable indicator of whether
the doctor is an employee or an independent
contractor at the hospital.
Similarly, that Cilecek used instruments of
the hospital emergency room that were supplied by the hospital is also inherent in the
provision of emergency medical services and
likewise is not a reliable indicator of employee
status. Whether a doctor specializing in emergency medicine is an employee of the hospital
or simply has privileges at the hospital, he
must, in almost every case, use emergency
room facilities provided by the hospital in order to render his services.
Cilecek, 115 F.3d at 262.
In Vakharia v. Swedish Covenant Hospital, 190
F.3d 799 (7th Cir. 1999), the plaintiff anesthesiologist
was appointed to the medical staff of the Hospital (i.e.,
given privileges), and was reappointed each year and
her privileges increased. After her hospital privileges
were terminated, the plaintiff sued the Hospital under
Title VII and the ADEA. The Seventh Circuit concluded she was not an employee because, although she
could not associate herself with other hospitals, she
was treated as self-employed for tax purposes, paid
her own malpractice insurance, and received no benefits from the Hospital. The governing agreement for

72a
anesthesiology department services also referred to
anesthesiologists as independent contractors, not employees. The plaintiff did not point to evidence that the
Hospital exercised “close control.”
In Hojnacki v. Klein-Acosta, 285 F.3d 544, 551
(7th Cir. 2002), the Seventh Circuit considered claims
brought by a physician against her former employer
Addus, a health care provider that contracted with the
state Department of Corrections (“DOC”), and the
court held she was not an employee of the DOC. Addus
contracted with the DOC to supply health care services
to inmates, and Hojnacki worked as medical director
at a correctional facility. After Hojnacki provided a 7Up to an inmate in violation of prison policies, the Warden sent a letter to Addus relating that Hojnacki had
knowingly violated prison policies and recommending that appropriate disciplinary action be taken that
would disallow her entrance into the correctional facility. Addus then discharged her because she was no
longer allowed access to the correctional facility and no
other similar positions existed within the company.
The court found that the three-year duration of her
employment through three health care provider contractors suggested an employment relationship, the
kind of occupation and skill required and the source of
payment and benefits tended to show she was not an
employee of DOC, and the source of equipment supplies/maintenance of workplace/costs of operation was
inconclusive.
Because control is the most important factor, the
DOC’s lack of control over the performance of Dr.

73a
Hojnacki’s duties suggested she was not an employee.
She was not supervised in her work by the DOC, and
the manual setting out the policies and procedures of
the health care unit provided that “[a]ll medical, psychiatric and dental matters involving clinical judgment are the sole province of the physician or dentist
responsible for the care of inmates.” Her duties, implementing “all clinical aspects of the health care program” and providing “primary health care services”
would undoubtedly involve “clinical judgment” and
would therefore be the “sole province” of Dr. Hojnacki.
Dr. Hojnacki argued that the DOC controlled her
work through the various policies and procedures with
which the DOC required her to comply, such as (1) completing some unspecified training, (2) serving on a
quality improvement committee with specified duties
and reporting to the warden, (3) requiring her to perform a monthly review of mortality cases, (4) specifying
what information should be included in admission and
discharge forms, (5) specifying how often to perform
physical exams of prisoners, and (6) specifying what
kind of questions to ask the inmates and to observe an
inmate’s behavior, appearance, and mental status. She
also argued that the DOC controlled her by setting her
working hours and requiring her to be on call. The
court found that these constraints did not amount to
control of the details of her performance and were not
“the discretionary control an employer daily exercises
over its employees’ conduct.” Id. at 551-52. The court
thus found Dr. Hojnacki was not an employee or a
loaned employee.

74a
With these examples in mind, the Court turns to
the allegations in the present case. As in Burton v.
Freescale, the economic realities weigh in favor of finding that the Hospital was not an employer: it did not
pay Plaintiff ’s salary, withhold taxes, or provide benefits, or reimburse expenses, nor did it set the specific
terms and conditions of Plaintiff ’s employment. Under
the Coverage Agreement, VHS did require that PICCS
Physicians be paid fair market value, but otherwise
PICCS retained sole discretion in setting their compensation. PICCS set the rates for Plaintiff ’s work,
handled all the billing for Plaintiff ’s work, and paid
Plaintiff for his work; VHS did not.
For control, we look at whether (1) the alleged
employer has the right to hire and fire the employee,
(2) the right to supervise the employee, and (3) the
right to set the employee’s work schedule. VHS contends that the contractual agreement (PSA) governing
the terms of Plaintiff ’s service at the Hospital was negotiated between and entered into by PICCS and
Plaintiff. Waechter Decl. Perry argues that VHS “had
the power to prevent [his] hiring” by requiring him
to sign the Physician Agreement as a requirement of
the PICCS-VHS Coverage Agreement. The Physician
Agreement does not address the substantive terms and
conditions of Plaintiff ’s work at the Hospital. Requiring Plaintiff and all Physicians who contract with
PICCS to make acknowledgments through the Coverage Agreement is not the same as exercising hiring
control. And Waechter (President of the Hospital and
signatory to the Coverage Agreement) testified that, to

75a
the extent it referred to “approval” to provide services,
it meant only credentialing and granting of staff
privileges, not approval of PICCS’s hiring decision.
Waechter depo. at 24. VHS would accept whatever
qualified Physicians (per the terms of the Coverage
Agreement) that PICCS selected and provided to work
in the PICU (other than the Director).
Plaintiff contends that VHS employees, including
President Waechter, interviewed him. Perry depo. at
17. VHS asserts that Plaintiff was given a tour of the
Hospital, met with Bill Waechter, and had breakfast
with the PICU nursing staff, wherein they discussed
Plaintiff ’s preferences for being contacted while on call
and his philosophy concerning recommendations from
the nursing staff. PICCS contends this was only an informal attempt “to ascertain whether Dr. Perry could
work well with the staff ” and there was no formal evaluation or formal interview process. Docket no. 59-1
(Gowan Decl.); Gowan depo. at 21 (Waechter interviewed Plaintiff, but it was so the candidate would
know he could talk to the Hospital CEO, and it was
more of an introduction, not an assessment); Gowan
Decl. p. 33 (“The purpose was to see if he would be compatible to work with the staff at North Central Baptist
Hospital.”). Waechter testified he did not recall interviewing Perry or even meeting with him, but that he
likes to say “hi” and give a history of the hospital and
information such as where to park. Waechter depo. at
66. Thus, there is no evidence that VHS played a significant role in hiring Plaintiff or that its approval was
required for PICCS to hire him.

76a
VHS did reserve the right for its CEO to request
the removal of a PICCS physician from the Hospital if
continued service by such physician could jeopardize
patient care or safety, and PICCS agreed to immediately remove any such Physician in accordance with
the Bylaws. Chavez testified that he insisted on the
limitations that the request could only be for a reason
contained within the Bylaws. Chavez depo. at 34-35.
And VHS agrees that its right was limited to the “rare
instance” of VHS concluding that continued service by
a PICCS physician could jeopardize patient care or
safety. VHS asserts that Waechter and Kellis felt that
Plaintiff had created a hostile, non-workable environment that was placing patient care in jeopardy. VHS
did not exercise its right to request removal as to any
other PICCS Physician. VHS notes that its request did
not preclude Plaintiff from admitting or treating patients at North Central Baptist or any other hospital
in the Baptist Health System because Plaintiff continued to hold his Medical Staff membership and privileges (which can only be terminated in accordance with
the Medical Staff Bylaws), and those were automatically revoked later only because Plaintiff failed to
maintain his medical malpractice insurance.
In Jones v. Norfolk Southern Co., 348 F. App’x 970,
2009 WL 3346127, at *3 (5th Cir. 2009), the Fifth Circuit noted in an unpublished opinion that an alleged
joint employer’s absolute right to bar the staffing company’s employees from the facility if, in its sole judgment, the employee posed a risk or threat to the safe
and efficient operation of the facility was insufficient

77a
to transform it into an employer. Further, in E.E.O.C.
v. Valerio Refining-Texas, L.P., No. 3:10-CV-398, 2013
WL 1168620, at *4 (S.D. Tex. Mar. 13, 2013), the district
court considered the EEOC’s position that because
Valero made the decision to exclude the subcontractor’s employee from the refinery, and the subcontractor
had no other work for him and he lost his job as a result, that Valero effectively fired him. The district court
wrote,
But the Fifth Circuit recently rejected the argument that the power of a company to exclude an independent contractor’s employees
from its premises renders it a joint employer.
See Jones [v. Norfolk S. Co.], 348 F. App’x at
973 (“Norfolk’s ‘power’ over TVM employees
was limited to barring TVM employees from
the Norfolk facility. This ‘power’ is insufficient
to transform Norfolk into Jones’s employer for
Title VII purposes.”). So did a recent, factually
similar district court case, in which a plaintiff
hired by an independent contractor to perform work at an Exxon Mobil chemical plant
was excluded from the plant after she was discovered with contraband. See Boutin [v. Exxon
Mobil Corp.], 730 F.Supp.2d [660,] 667, 680-81
[S.D. Tex. 2010] (declining to find that Exxon
Mobil was a joint employer based on its authority to exclude the plaintiff from the plant).
Id. at *4. Thus, the fact that Valero excluded the plaintiff from its premises, without more, did not amount to
the control required; Valero did not have authority to
discipline the plaintiff and did not directly supervise

78a
him beyond establishing the safety protocols to which
he was required to adhere. Id. at *4-5. These cases, as
well as Hojnacki from the Seventh Circuit, discussed
supra, indicate that the fact that VHS exercised its
contractual right to ask for Perry to be removed from
the PICU contract does not make VHS his joint employer.
With regard to scheduling control, VHS contends
that it did not dictate Plaintiff ’s work schedule or control when he worked. VHS asserts that PICCS created
and maintained the work schedules for its physicians,
including Plaintiff, for both on-call coverage and for administering pediatric procedural sedation. VHS states
it had no oversight in or involvement in the scheduling process. VHS also did not require any sort of regular attendance by Plaintiff, and Plaintiff sometimes
worked just one week a month. Although some VHS
employees asked him about extended absences, it was
“more of just a curiosity” and not like a “You’re in trouble” kind of thing. Perry depo. at 76. VHS did not dictate that Plaintiff could not work at other facilities.
Perry depo. at 76.
To demonstrate VHS’s control of his schedule,
Plaintiff asserts that VHS employee Shannon Herrod
scheduled him for pediatric sedations at inappropriate
times. Perry depo. at 59-60. Under the Coverage Agreement, PICCS would provide scheduled sedation Monday through Friday from 0700 to 1300 and emergency
sedation coverage up to 1500, or as otherwise agreed
by the parties in writing. Docket no. 59-2 at 13. Under
the schedule, the night shift doctor was the sedation

79a
doctor the next morning, and was not supposed to be
there past two, but Perry complained that Herrod was
scheduling sedations too late in the day. Perry depo. at
60. But Dr. Chavez placed Perry on the schedule, including the sedation schedule, with Plaintiff ’s stated
availability, and Herrod merely scheduled patients to
be seen as an administrative function. Thus, she was
scheduling procedures, not necessarily setting Plaintiff ’s schedule or procedures. Further, Plaintiff spoke
with VHS administration and the process changed so
that sedations were more regularly scheduled at times
Plaintiff deemed appropriate. Thus, Plaintiff fails to
demonstrate that VHS controlled Plaintiff ’s schedule
in this regard.
Plaintiff further asserts that VHS required him to
be present at the Hospital at certain times for in-house
call coverage. 38. The Coverage Agreement provided
that PICCS would provide “in-house call coverage”
“only when there is a pediatric inpatient in the Department who meets the Critical Care criteria.” Docket no.
59-2 at 12. Physicians were required to be at the Hospital (in-house) during the day per the Coverage Agreement according to Chavez. Perry depo. at 38. Several
months after starting (May 9, 2015), Chavez emailed
that “we” had developed criteria (Perry thought with
the Hospital administration) that required that PICU
Physicians stay in-house at night when certain criteria
were met, rather than managing the patient remotely.
Perry testified, “[T]hey came up with a set of criteria
that came to use through PICCS for which we had to
stay. There was not an option.” Perry depo. at 38, 41.

80a
Perry disagreed with the criteria and voiced his disagreement to Chavez, but Chavez said it was part of the
agreement that PICCS had with the Hospital and he
had no choice but to stay. Perry depo. at 41. Chavez
stated it was required by the Society of Critical Care
Medicine Guidelines, which state which types of patients should be managed by pediatric intensivists, but
Perry believed they did not require physicians to be inhouse to manage them. Perry depo. at 43-44. As a result of the policy, there were at least some instances
where Perry had to stay in-house overnight. Perry
depo. at 45, 131. This fails to demonstrate that VHS
controlled Plaintiff ’s schedule, however. Requiring
Physicians to remain in-house when certain medical
criteria were met pursuant to the Coverage Agreement
is part of the duties that PICU Physicians must perform pursuant to the Coverage Agreement, regardless
of whether Plaintiff agreed or disagreed that the Critical Care criteria required it. Hojnacki, 285 F.3d at 551
(“[O]ne can ‘control’ the conduct of another contracting
party by setting out in detail his obligations; this is
nothing more than the freedom of contract. This sort of
one-time ‘control’ is significantly different than the discretionary control an employer daily exercises over its
employees’ conduct.”). Further, Plaintiff fails to demonstrate beyond speculation that any change in policy
came from VHS rather than PICCS.
With regard to supervision, VHS contends it did
not supervise Plaintiff either contractually or as a matter of fact. The contractual provisions provide that the
PICU would be supervised by the Director, Dr. Chavez,

81a
who was appointed by and is an owner/director of
PICCS. The Director had to be approved by VHS, and
acted as a liaison between the Hospital, PICCS, and
the Physicians. Chavez depo. at 4. Dr. Chavez’s duties
including supervising the non-Physician staff, but
there is nothing in the contract stating he would supervise the Physicians. Chavez testified that if “they
[the Hospital] are filing a complaint that the nurses or
the doctors were doing this or that, they will communicate to me. And if there’s a part that we can fix, then
we’ll fix it.” Chavez depo. at 4-5. Chavez testified that
privilege suspensions would be done by the Medical
Board pursuant to the Bylaws, not by the Hospital. Id.
at 28.
VHS did not maintain personnel records or conduct any sort of performance review for Perry. Although Perry was twice peer reviewed for quality of
care by the Hospital Medical Staff, the Medical Staff is
its own, independent, self-governing body composed of
physicians holding Medical Staff membership and
privileges, and is distinct from VHS the Hospital. Peer
review is conducted when the activities or professional conduct of any physician is brought into question. Watkins Decl. Peer review assesses whether there
were any quality of care of patient safety concerns. Id.
After an investigation, the Medical Executive Board
may issue letters of reprimand or warning, may recommend terms of probation, recommend reduction, suspension or revocation of clinical privileges, recommend
that staff membership be suspended or revoked, or
take other appropriate actions. Certain scenarios also

82a
result in automatic suspension or limitation of privileges or membership, including failure to maintain
professional liability insurance. Since both Plaintiff ’s
peer reviews revealed no quality of care issues, there
were no consequences from the reviews. Id. Courts
have held that peer review is not the type of supervision establishing an employment relationship with the
Hospital. All medical staff agree to abide by the Medical Staff Bylaws and Rules and Regulations, and they
provide a form of self-governance. Id.; see also Gowan
Decl. p.17. The Bylaws incorporate the Medical Staff
Rules and Regulations, which govern how a physician
must act. Gowan Decl. p. 17.
Plaintiff asserts that VHS supervised him and had
the authority to discipline him because the PSA required him to subject himself to the Tenet Standards
of Care in addition to the Bylaws, and the Tenet Standards of Care provide that failure to follow Tenet’s policies and procedures will result in disciplinary action
up to and including termination. The Tenet Standards
of Conduct set forth Tenet’s core values, such as quality, integrity, service, innovation, and transparency.
They state that the standards “define what it means to
be a Tenet employee, and you simply cannot work here
without committing to them.” Docket no. 60-2 at 25.
But they also state that they apply “to contractors
when they are acting on behalf of Tenet” and “[m]any
of our contractors also are required to sign a certification” that they have read and understood the standards. Id. at 26. Requiring all workers to comply with
general policies and procedures governing quality,

83a
safety, and compliance with regulatory standards does
not create an employment relationship.
Perry contends Dr. Kellis, Chief Medical Officer at
the Hospital supervised him. Perry’s first interaction
with Kellis was a few weeks after he hand-delivered
his complaint to everyone in 2016. Perry depo. at 46.
Kellis called in Drs. Chavez, Fernandez, Aviles, and
Perry “to discuss work environment.” Perry testified
that Kellis said, “Until two weeks ago, I never heard
your name before and now I’m getting calls or texts almost daily from the nurses complaining about you. I
want it to stop and go back to the way it was when I
didn’t know who you were . . . basically, you know, I
would be terminated or removed or whatever it was, to
that effect.” Perry depo. at 46. Plaintiff also points to
the fact that the Hospital could prohibit him from
treating patients, and in fact removed two patients
from his care. Perry depo. at 54. Plaintiff testified that
there were two instances where parents complained to
Figueroa (PICU nursing director), who took the complaints to administration, and then he “had the directive that actually even came to me through the
nurses that I was not allowed to take care of those two
patients, per the hospital.” Id. Instead, other doctors
would see those patients. But these instances demonstrate only that the Hospital took appropriate steps to
protect its relationship with its employee nurses and
its customers in order to continue delivery quality care,
as it would regarding the conduct of all persons operating or visiting its premises, employees or not.

84a
Perry further contends that the Hospital’s CEO
Bill Waechter was directly involved in communicating
with the nurses about issues involving Plaintiff, and
thus supervised him indirectly through the nursing
staff. He testified that he did not interact with
Waechter very frequently and “had no conversations
really with Bill.” Perry depo. at 31, 34. Perry testified
that Figueroa had a direct line to Waechter, and
Waechter frequently communicated directly with the
nurses about issues involving him, though he never
heard these conversations or other conversations between Waechter and the nurses. Perry depo. at 31, 35.
VHS’s objection to this testimony as lacking personal
knowledge is sustained. Perry testified that Waechter
would come through on rounds and sometimes would
speak with the staff. Perry depo. at 34. Waechter also
once had a pregnant patient transferred to the Hospital over his objection. Perry testified that this was a
direct example of forcing a patient on him that he felt
was inappropriate because she needed an OB intensivist. Id. at 36-37. But these examples do not demonstrate that Waechter supervised Plaintiff or interfered
with his medical judgment in a meaningful way.
Perry testified that Figueroa also supervised him
by attempting to interfere in medical management of
patients, which Perry felt was beyond her education
and training. Perry depo. at 35. She investigated his
complaints about the staff, even when he asked for her
not to because she was inappropriately close with the
staff. Perry depo. at 36. But Plaintiff has not credibly

85a
demonstrated that Figueroa, a nurse, supervised him
or exercised control over him.
Plaintiff also points to a directive from Baptist
that the PICCS physicians would have to consult on
every patient in the PICU. Perry depo. at 46-48. Perry
thought this took away discretion from the admitting
physician and the consulting PICU physician. Id.
Perry stated that the directive came from Chavez, but
he said “we are” part of this now, like the other ICUs in
Baptist’s system. Id. Perry thought he did not need to
see the patients based on a directive by people who are
not medically trained. Id. Again, this does not demonstrate any more than Baptist was implementing a consistent policy regarding ICU patients in its Hospital to
ensure patient care and safety. Similarly, Perry’s reliance on directives to keep drug spending within $70
per day, Perry depo. at 59, and the requirement to use
computerized physician order entry in order to maintain staff privileges, Perry depo. at 49, demonstrates
only consistent policy applied throughout the Hospital
for all physicians.
To the extent Plaintiff relies on order sets for
treatment, such as for ketoacidosis and asthma, he testified that none of the four PICCS doctors followed the
ketoacidosis order set, and there were no repercussions
that he was aware of. Perry depo. at 53. Perry also testified that the Hospital dictated certain medications be
used or protocols followed. As an example, he stated
that Chavez had the nurses combine two medications
(Propofol and Ketamine) together as a flat policy, because they would treat each other’s bad side effects,

86a
and Perry could not get them alone. Perry depo. at 63.
But Chavez was a PICCS physician, and the decision
to make certain medications available in certain ways
is no different from the Hospital deciding to have certain equipment available and not others, and does not
demonstrate the Hospital’s control over Plaintiff. As to
other “directives” that were issued, Perry stated that
he had “no idea where they came from” and “some magically appeared in the system.” Perry depo. at 64.
Perry’s examples fail to demonstrate meaningful
control by VHS over him and his work to render it his
joint employer. System-wide or Hospital-wide policies
are simply conditions for operating within the System
or the Hospital applicable to all physicians. Further,
many of the requirements are necessary to the Hospital’s attempt to fulfill its duties to patients to provide
quality care and abide by federal rules and regulations.
Although they demonstrate “control” in a general
sense, it is not the type of control sufficient to create a
joint employer relationship. If anyone employed Perry,
it was only PICCS, but PICCS is too small to be an
employer for Title VII purposes. Accordingly, neither
PICCS nor VHS are employers under Title VII as a
matter of law, and summary judgment is granted on all
of Plaintiff ’s Title VII claims.
Analysis – Section 1981 claims
PICCS does not move for summary judgment on
Plaintiff ’s claims under § 1981, but VHS moves for

87a
summary judgment on the basis that there was no contractual agreement between them.
Perry alleges that he was subject to a hostile working environment, based upon his race, and that he was
discharged because of his race and because he complained about the racist environment in which he was
forced to work, in violation of 42 U.S.C. § 1981. Docket
no. 28 at 11. Section 1981 prohibits discrimination on
the grounds of race in the making and enforcing of contracts. 42 U.S.C. § 1981(a). Jeffrey v. Columbia Med.
Ctr. at Lancaster Subsidiary LP, 48 F. App’x 103, 2002
WL 31016499, at *5 (5th Cir. 2002). The term “make
and enforce contracts” includes the making, performance, modification, and termination of contracts, and
the enjoyment of all benefits, privileges, terms, and
conditions of the contractual relationship. 42 U.S.C.
§ 1981(b).
VHS contends that there is no contract here that
was interfered with because the Physician Agreement
is not a bilateral contract and is not signed by VHS.
Further, “it is generally understood that rights promulgated by medical staff bylaws are considered incapable of creating an enforceable contract between the
hospital and its physicians.” Van v. Anderson, 199
F. Supp. 2d 550, 562 (N.D. Tex. 2002). In addition,
Plaintiff ’s staff privileges were not revoked; they were
terminated when he allowed his medical malpractice
insurance to lapse.
In contrast, Perry contends that the Physician
Agreement he signed is a contractual relationship for

88a
purposes of § 1981. The PICCS-VHS Coverage Agreement contains a section called “Medical Staff Membership,” in which PICCS agreed that medical staff
membership and/or clinical privileges of Physician are
based upon the Medical Staff Bylaws and that membership and privileges would terminate in accordance
with the Medical Staff Bylaws, that the Medical Staff
Bylaws would control with respect to peer review matters, and that PICCS would cause each Physician to
execute the Physician Agreement attached as Exhibit
A. Docket no. 59-2. The Physician Agreement states, “I
. . . understand that I am bound by all terms and conditions of the” PICCS-VHS Coverage Agreement and,
“In consideration of my approval by Hospital to provide
services at North Central Baptist Hospital, pursuant
to the Agreement, I knowingly and voluntarily agree”
that (1) it is in the best interest of Hospital’s ability to
provide quality patient care in a cost-effective and efficient manner for Hospital to contract with an exclusive provider and, upon expiration or termination of
the Coverage Agreement, Hospital shall have the right
to grant an exclusive contract to any person or entity;
(2) the Medical Staff Bylaws shall control any termination of Medical Staff membership and/or clinical
privileges and unless and until such loss of membership occurs, I am bound by and subject to all provisions
of the Bylaws, Rules and Regulations of Hospital
and/or its Medical Staff; and (3) if the Agreement expires and/or terminates for any reason, and I continue
to hold Medical Staff membership and/or exercise
clinical privileges thereafter, this shall not, in any
way, waive or restrain the Hospital from granting an

89a
exclusive contract for the provision of Services to any
person or entity. It then states that by his signature
he acknowledges that he has carefully read and the
Agreement and knowingly and voluntarily agrees to
the terms. There is no signature line for VHS.
Plaintiff argues that the Physician Agreement is a
contract insofar as it states exactly what Dr. Perry
agrees to in exchange for working at VHS. Plaintiff
notes that the Physician Agreement even has a severance clause that implies VHS intends the contract to
be legally enforceable against the parties to it. Perry
emphasizes that he does not allege that being subject
to the Bylaws alone creates a contractual relationship
between him and the Hospital.
For the same reasons that no employment relationship exists between Plaintiff and VHS, no enforceable contractual relationship exists between them.
Although the language of the Physician Agreement implies bilateral consideration by stating that “in consideration for” his approval, Perry makes certain
agreements, it creates no enforceable contract rights
against VHS. Dr. Gowan testified that the “in consideration of ” language means that Perry met privileging
and credentialing requirements by the medical staff,
not any formal approval by the Hospital. Gowan depo.
at 24-25. Further, it was PICCS, not VHS, who required
Perry to sign the Physician Agreement, pursuant to
its obligations under the Coverage Agreement. The
Agreement simply states that Perry understands he
is bound by the Coverage Agreement, and that he
agrees that the Bylaws shall control any termination

90a
of membership and/or privileges, and that he is bound
by them until they are terminated. Perry already
agreed in the PSA to act consistently with all Bylaws
of the medical staff. Thus, the Physician Agreement
does no more than restate the fact that the Bylaws control membership and privileges and their termination.
To the extent the Physician Agreement creates any additional rights or agreements, it is only that Perry
agrees that the Hospital can enter into a new exclusive
agreement with any entity or person even if he maintains membership or privileges; it does not give Perry
any additional rights. Thus, this case is no different
from other cases holding that staff membership under
the medical staff bylaws does not create a contractual
relationship with the Hospital. See Obey v. Frisco Med.
Ctr., L.L.P., No. 4:13-CV-656, 2015 WL 417425, at *5
(E.D. Tex. Jan. 30, 2015); Johnson v. Christus Spohn,
No. C-06-138, 2008 WL 375417, at *15 n.90 (S.D. Tex.
Feb. 8, 2008) (“Courts in the Fifth Circuit consistently
find that medical staff bylaws do not create a contract
between a hospital and a doctor and thus do not give
rise to contractual rights or contract-based causes of
action.”), aff ’d 334 F. App’x 673 (5th Cir. 2009) (“In
Texas, hospital bylaws can create contractual rights in
favor of doctors, whereas medical staff bylaws generally do not.”)4; Van v. Anderson, 199 F. Supp. 2d 550,
4

Medical staff bylaws that recognize that the medical staff
is subject to the ultimate authority of the board and do not attempt to define or limit the Hospital’s power to act through its
board of trustees do not create contractual obligations for the hospital, even though the board may have approved and adopted the
staff bylaws. Johnson v. Spohn, 334 F. App’x 673, 685 (5th Cir.

91a
562-64 (N.D. Tex. 2002) (dismissing physician’s § 1981
claim because “it is generally understood that rights
promulgated by medical staff bylaws are considered incapable of creating an enforceable contract between
the hospital and its physicians,” and “in the absence of
a contract with the Defendant Hospital, Plaintiff has
failed to satisfy a necessary element for maintaining
his Section 1981 action.”); Stephan v. Baylor Med. Ctr.
at Garland, 20 S.W.3d 880, 888 (Tex. App.-Dallas 2000,
no pet.); Monroe v. AMI Hosps. of Tex., Inc., 877 F. Supp.
1022, 1029 n.5 (S.D. Tex. 1994). Further, Plaintiff ’s
privileges ended only when his malpractice insurance
lapsed, not when the Hospital CEO asked for Plaintiff
to be removed from the PICCS contract, and thus he
cannot show that the Hospital interfered with his privileges. See Van, 199 F. Supp. 2d at 564 (“Moreover, the
Plaintiff in this case cannot present any evidence of interference with his privilege to practice at the hospital,
since it is unrebutted that Dr. Van’s staff privileges
were never revoked, but that his privileges were terminated on June 27, 2000 when he voluntarily allowed
his privileges to lapse.”).
In a footnote, Plaintiff asserts that, even if he did
not have a contract with VHS, “the Fifth Circuit has
held that 42 U.S.C. § 1981 permits claims against nonemployer (and non-contracting) third parties if those
third parties exercised control over the complained-of
conduct” and “Dr. Perry was subject to control by VHS”
insofar as the PSA required him to comply with the
2009) (citing Stephan v. Baylor Med. Ctr. at Garland, 20 S.W.3d
880, 887-80 (Tex. App.-Dallas 2000, no pet.)).

92a
rules, regulations, and policies of the Hospital. Citing
Foley v. University of Houston Sys., 355 F.3d 333, 33738 (5th Cir. 2003), he argues VHS may be held liable
under Section 1981 for race discrimination and retaliation.
But VHS correctly points out that the Fifth Circuit
did not so hold in Foley. Rather, the Court stated, “We
recently noted in Felton v. Polles, 315 F.3d 470 (5th Cir.
2002), that it has not yet been decided ‘whether a
§ 1981 claim lies against an individual defendant not
a party to the contract giving rise to a claim.’ We have,
however, accepted that § 1981 liability will lie against
an individual defendant if that individual is ‘essentially the same’ as the State for the purposes of the
complained-of conduct.” Foley, 355 F.3d at 337 (citations omitted). The district court found genuine issues
of material fact as to whether the individual Appellants exercised control over the faculty positions and
titles held by the plaintiffs, and, if so, they were “essentially the same” as UHV for purposes of the retaliatory
conduct alleged. The Court recognized a tension in its
cases with respect to the liability of individual defendants who are not parties to the employment contract,
but did “not believe that this is the proper case in
which to decide the outer boundaries of § 1981 liability
as it applies to individual non-employer defendants,
nor to attempt to catalogue every fact situation which
might subject an individual to such liability.” Here,
Perry is not attempting to hold accountable an individual non-employer defendant, and thus Foley is

93a
inapposite even if it had decided the issue. Perry’s
§ 1981 claims against VHS are dismissed.
Conclusion
PICCS’s Motion for Summary Judgment (docket
no. 58) is GRANTED and all Title VII claims against
PICCS are dismissed. Perry’s claims under § 1981 remain pending against PICCS.
VHS’s Motion for Summary Judgment (docket no.
56) is GRANTED and all claims against VHS are DISMISSED.
The motion to strike (docket no. 63) is GRANTED
IN PART, DENIED IN PART, and DISMISSED AS
MOOT IN PART.
The Agreed Motion to Stay Discovery and Pending
Deadlines (docket no. 70) is GRANTED. PICCS and
Perry shall confer and submit a new Scheduling Order
to govern the remainder of the case within fourteen
days of this Order.

